<html>
<title> - CHILD PRODUCT SAFETY: DO CURRENT STANDARDS PROVIDE ENOUGH PROTECTION?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 CHILD PRODUCT SAFETY: DO CURRENT STANDARDS PROVIDE ENOUGH PROTECTION?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 2004

                               __________

                           Serial No. 108-129

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                 U.S. GOVERNMENT PRINTING OFFICE
97-273PDF               WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Cowles, Nancy A., Executive Director, Kids in Danger.........    37
    Felcher, E. Marla............................................    34
    Ginzel, Linda................................................    26
    Klein, Gary S., Senior Vice President Government, Legal and 
      Regulatory Affairs, Toy Industry Association...............    40
    Lipin, Lisa A................................................    29
    Stratton, Hon. Hal, Chairman, U.S. Consumer Product Safety 
      Commission.................................................     6
    Weintraub, Rachel, Assistant General Counsel, Consumer 
      Federation of America......................................    45
Additional material submitted for the record:
    Stratton, Hon. Hal, Chairman, U.S. Consumer Product Safety 
      Commission:
        Response for the record..................................    64
        Letter dated November 4, 2004 enclosing additional 
          material for the record................................    65
    Weintraub, Rachel, Assistant General Counsel, Consumer 
      Federation of America, response for the record.............    61

                                 (iii)

  

 
 CHILD PRODUCT SAFETY: DO CURRENT STANDARDS PROVIDE ENOUGH PROTECTION?

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Shimkus, Terry, 
Issa, Schakowsky, and Green.
    Staff present: David Cavicke, majority counsel; Chris 
Leahy, policy coordinator; Shannon Jacquot, majority counsel; 
Billy Harvard, legislative clerk; Jonathan Cordone, minority 
counsel; Turney Hall, staff assistant; and Ashley Groesbeck, 
minority research assistant.
    Mr. Stearns. Good morning. The subcommittee will come to 
order.
    The business of commerce is always a serious matter, and 
when the business involves protection of our most valuable 
citizens, our children, there is indeed added significance. 
Children are a treasure for all of us, obviously, and when they 
are harmed accidentally we are all emotionally affected. 
Especially when these accidents occur involving products 
provided obviously with the best intentions, the parents, the 
families, and the caregivers all give great concern.
    I would like to commend my colleague, the ranking member of 
the subcommittee, Ms. Schakowsky, for focusing us today on 
child product safety issues and the effectiveness of this 
current regulation that we have. These issues are extremely 
important to all of us as lawmakers, caregivers, parents, and, 
for some who shall remain anonymous, as grandparents.
    Again, I would like to commend the ranking member and her 
staff for their work on this important area, and I am 
interested to hear from the diverse panel of witnesses today 
what is working and obviously what is not working.
    The jurisdiction over child product safety rests with the 
Consumer Product Safety Commission, or the CPSC as we use the 
term. They enforce specific child product safety regulations, 
including regulations related to paint and coating materials, 
pacifiers, rattlers, sharp edges and points, and small parts 
that could be swallowed or inhaled. The CPSC can initiate 
investigations that ultimately lead to recalls for items that 
present a substantial risk of injury to the public or if they 
violate specific safety standards issued by this Commission.
    Regardless of the regulatory mechanism, we hear buzz words 
like sharp and small objects. They can create immediate anxiety 
for any parent or caregiver, because children always seem to 
find trouble very quickly when a parent or caregiver's watchful 
eyes are distracted or unable to supervise.
    In terms of statistics, the U.S. toy industry is a very 
large business. The industry had sales of $20.7 billion in 
2003, and during that same year the CPSC recalled 96 toys and 
children's products involving almost 14 million separate 
products. Sadly, there were 11 toys related to deaths in 2003 
and approximately 206,500 injuries.
    I would note that the toy sales figures do not include 
other children's products or consumer products affecting 
children.
    The protection of our children and child product safety is 
as important as any issue this subcommittee will ever consider, 
and I intend to give these issues a thorough hearing today.
    First, I would like to understand in statistical terms how 
the CPSC is doing--what it is doing to address unsafe 
children's products that are already on the market and on the 
secondary used market.
    Second, I would like to examine how we can improve these 
numbers, including getting a better idea of where and how money 
is deployed at the CPSC as well as how industry is working with 
the regulators to improve child product safety.
    And last, my colleagues, providing parents and caregivers 
with the proper information to protect their children from 
unnecessary risk is also an important element of safety. I 
would like to learn more about what the CPSC provides publicly 
and what the toy manufacturers are offering to consumers 
regarding child product safety. As we all know, generous 
consumer information that leads to well-informed consumers can 
go a long way, a long way in helping to prevent needless 
accidents.
    Some of the most important questions this subcommittee is 
interested in are as follows: Are current standards providing 
enough protection for children? What are the most significant 
product safety risks today for children? What does the data 
show regarding how effective recalls are in removing unsafe 
children products from the market, including these used items? 
What is the industry doing to improve the safety of children's 
products? And what is the actual data, including recalls and 
accidents, for the last 5 or 10 years? You know, in general, 
are things improving?
    I commend those who are working so hard to improve child 
product safety in the public and private sectors, including 
efforts to make children's products safer and better so that 
potential problems can be identified before they become much 
worse. The regulatory system likewise can be improved and made 
better to ensure even safer children's products today, products 
that provide so much fun and enjoyment for our children.
    I would like to thank Chairman Stratton in particular for 
being here today. He was scheduled to be in Los Angeles to 
inspect the port and rearranged that visit to testify on our 
committee this morning, and I appreciate his taking that time 
to do so. So he will be leaving directly from this hearing, so 
I wish him the best on that trip and I encourage him to 
continue his good work on the Commission.
    With that, I will yield to the ranking member, Ms. 
Schakowsky.
    Ms. Schakowsky. I sincerely thank you, Chairman Stearns, 
for holding this hearing today on what I consider to be one of 
the most important issues under our subcommittee's 
jurisdiction, child product safety standards and whether they 
provide enough protections for our most vulnerable consumers.
    I am also pleased to welcome the witnesses, including 
Consumer Product Safety Commission Chairman Stratton, whose 
Commission, in my view, is grossly underfunded and 
understaffed, and the three tireless child product safety 
advocates that are here from Chicago as well as the other 
witnesses.
    I would like to welcome Lisa Lipin, a constituent from my 
district, whose son was nearly strangled by a seemingly 
harmless toy, a yo-yo ball. And I would also like to thank 
Linda Ginzel for joining us today. Linda lost her son Danny 
when a portable crib collapsed around his neck. These women are 
here today as examples of how people can turn tragedies or near 
tragedies into action. Ms. Ginzel and her husband Boris Keysar 
co-founded an advocacy group, Kids in Danger, to educate about 
and advocate for safer products.
    Ms. Lipin has single handedly brought the yo-yo ball danger 
to the attention of parents, reporters, and elected and 
appointed government officials; and because of her efforts six 
major chain stores have agreed to pull the yo-yo balls off 
their shelves.
    Unfortunately, the experiences which prompted their 
advocacy are not unique. Parents across the country buy toys 
and other products for their children assuming, because they 
are on the shelves, they are safe. A 1999 Coalition For 
Consumer Rights survey in Illinois found that 75 percent of 
adults believe that the government oversees premarket testing 
for children's products; 79 percent believe that manufacturers 
are required to test the safety of those products before they 
are sold. For most products, neither is true. In fact, there 
are no mandatory safety standards for the majority of the 
children's products being sold today.
    Congress passed legislation in 1981 that prohibits the 
Consumer Product Safety Commission, the agency that oversees 
product safety, from establishing mandatory standards in most 
cases. The few standards that are in place are set by the very 
industries looking to make profits, and they are also expected 
to police themselves.
    Let me stress what that means. Although there may be 
voluntary standards in place, there are no requirements that 
all potential hazards are addressed in those standards, no 
requirement that products be tested in the field, no 
consequences for the manufacturer if the standards are not met, 
and no requirement for products to be tested to see if the 
standards are met.
    This is true even for baby carriers, cradles, play pens, 
high chairs, and other items bought specifically for use by 
infants and children.
    Although the CPSC requires no testing and manufacturers may 
or may not perform their own tests, do not be mistaken. 
Children's products are tested. They are tested in our own 
homes with our own children and grandchildren as test dummies. 
The costs of those tests can be a panicked child, bruised 
fingers, fractured skulls, or a dead child.
    In 2001, an estimated 69,500 children under the age of 5 
were treated in U.S. Hospital rooms for injuries associated 
with nursery products. According to the CPSC, an average of 65 
children under the age of 5 die each year in incidents 
associated with nursery products. Unintended injuries are the 
leading cause of death for children under the age of 4. But as 
Marla Felcher's book reveals, many of these deaths are because 
of unsafe products. And, as the title of her book says, it is 
no accident. Too many unsafe children's products are on the 
shelves in homes and in day care centers.
    CPSC's primary means for responding to a dangerous product 
is to issue a recall. However, as Ms. Lipin's story will tell 
you, the Commission is hesitant to issue recalls or even to 
recommend that stores voluntarily take dangerous products off 
their shelves. In the case of yo-yo balls, although the CPSC 
has received at least 392 incident reports of strangulation, 
eye injuries, and skin irritations due to yo-yo balls, the toys 
are still on the store shelves.
    Instead of a culture of consumer production, it seems there 
is a culture of caution and delay. Is the CPSC waiting for a 
child to die? Even when a product is recalled, it remains a 
danger to too many children for too many years.
    A recent report by Kids in Danger shows that in 2002, yet 
another child was killed by a crib that had been recalled in 
1997. Unfortunately, once a recall is issued, only 10 to 30 
percent of consumers respond to it because of inadequate 
notification, inadequate notification, inspection, and 
enforcement activities. The crib that killed Danny had been 
recalled in the day care center that was inspected 8 days 
earlier.
    I believe that we must work to keep dangerous products from 
ever making it onto store shelves or into nurseries, child care 
centers, or homes. That is why I introduced legislation, The 
Infant and Toddler Durable Product Safety Act, H.R. 2911, that 
would require infant and toddler products to receive a Federal 
seal of approval before they are sold. This seal would 
demonstrate that those products have been independently tested 
and have met required national safety standards.
    I hope that when we return next year that we will be able 
to consider my bill and other potential solutions to the 
problems we will hear about today.
    Additionally, I believe we need to look for better ways to 
inform the public about dangerous products already on the 
market to make sure that not one more child or family has to 
experience a preventable tragedy.
    For those reasons, I truly appreciate today's hearing. I 
look forward to hearing from our witnesses and about their 
ideas on how to prevent what we know are no accidents.
    Mr. Stearns. I thank the gentlelady.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and I want to thank 
you for the hearing, and I want to recognize my colleague from 
Illinois. She has really been on this issue long before she 
even came to Congress, I know she did in the general assembly 
in Illinois, and it is an interest of great concern for her. So 
I applaud her passion and her resolve.
    I am going to pull up on the site there, our kids.us site. 
And we have numerous hearings that deal with kids, and I am 
amazed that every time we have groups that are supposed to be 
or are working hard to protect kids or shield kids, they don't 
know about this site or they are not actively engaged in 
putting information on this site. So this is my 2 minutes and 
19 seconds of advertising and encouraging both panels to get up 
on the site.
    Jan mentioned kids 5 and under who have been harmed. My 
sisteris taking classes to become a teacher at night, and I 
went to her Technology in the Classroom class. It was in the 
evening and I brought my 4-year-old son to explain kids.us. And 
it is great, and I have--the teacher put pictures and an 
explanation on the Web associated with Greenville College in 
Greenville, Illinois. And my 4-year-old is sitting there on a 
safe site for kids. So if we have problems with toys, you know, 
for young kids--and my 4-year-old will go to that site, it is 
his default site so he doesn't know any difference, he gets on 
the Internet and this pops up. And then you can't get out 
because it is--there is no hyper links, there is no chat rooms. 
It is an education information site only. And the stuff that is 
placed on here is approved through the NTIA and through a third 
party group.
    So those of you who are fighting for kids, I am fighting 
for you to get on the kids.us site. There is no excuse not to 
be on here. If we want to educate kids, if we want to make sure 
they are safe, there is a lot of venues through which we can 
attack the problem. This is one of them. I am not saying it is 
exclusionary, but what I am saying is, look at it, research. If 
you go to www.kids.us--and you can look up there--my son 
directly goes to games, and his favorite is Nick Junior, and 
that is where he hangs out. But there is also how to register 
information, what are the safeguards. All that stuff is on 
there. Please, please, if you are in this battle, whether you 
are the industry or you are the consumer rights folks 
protecting kids, both of you ought to be on this site doing 
what you can to help educate kids. Not only kids, because once 
kids get on this site, sometimes the parents are going to look 
and see what is on there also.
    So with that, Mr. Chairman, thank you for this time, and I 
look forward to hearing the testimony.
    Mr. Stearns. I thank the gentleman, and I thank him for his 
presentation.
    The gentleman from Nebraska.
    Mr. Terry. Waive.
    Mr. Stearns. All right. The gentleman waives.
    [Additional statement submitted for the record follows:]
Prepared Statement of Hon. Ed Towns, a Representative in Congress from 
                         the State of New York
    Thank you Mr. Chairman for holding this important hearing today. 
The Consumer Product Safety Commission plays a critical role in 
protecting American consumers, especially our young children. Thus, it 
is critical that the agency has the funding and regulatory powers to 
effectively carry out its mission. Unfortunately, much of the testimony 
submitted today indicated that the commission needs help to better 
protect our children.
    An issue under the Commission's jurisdiction that has been of 
concern to me for a long time is the regulatory treatment of toy guns. 
When toy guns look real, in the eyes of law enforcement, they are real. 
Police officers have to make split second decisions and often do not 
have the opportunity to distinguish a real gun from a toy.
    Nearly one year ago today, a toy gun closed the offices on Capitol 
Hill for two hours. This was another reminder of how real toy guns can 
appear, and the problems that this can cause. The fact that a toy gun 
could close down one of the most heavily guarded buildings in the 
country shows how much trouble one toy gun can cause. In fact, 
according to press reports at the time, the police described the 
supposed intruder as a white male with a .38 caliber gun. While this 
misunderstanding was resolved without anyone losing his or her life, 
toy guns can and have resulted in fatal shootings.
    In Brooklyn alone, three kids and one adult have been killed over 
the confusion of a toy gun. Additionally, one young Brooklyn child was 
shot 17 times and critically wounded by two officers while riding his 
bike--WHILE RIDING HIS BIKE--because he had a toy gun that looked real. 
In fact, the last time data was collected, local police agencies 
reported during a five-year period more than 5,800 robberies or 
assaults were committed involving toy guns.
    Obviously, it is the person not the toy that commits the crime. But 
toy guns make it easier for youngsters to commit the crime and only 
serve to wet young kids appetite for a real gun when they get older. 
Toy guns serve no purpose in society. My legislation, H.R. 211, would 
ban toys which in size, shape, or overall appearance resemble real 
handguns. This would eliminate any confusion and prevent needless 
tragedies from occurring.
    I look forward to a discussion of this issue, along with the 
Commission's overall effectiveness with today's witnesses. Thank you 
Mr. Chairman.

    Mr. Stearns. And with that, the Honorable Stratton, we 
welcome your opening statement.

    STATEMENTS OF HON. HAL STRATTON, CHAIRMAN, U.S. CONSUMER 
  PRODUCT SAFETY COMMISSION; LINDA GINZEL; LISA A. LIPIN; E. 
  MARLA FELCHER; NANCY A. COWLES, EXECUTIVE DIRECTOR, KIDS IN 
DANGER; GARY S. KLEIN, SENIOR VICE PRESIDENT GOVERNMENT, LEGAL 
 AND REGULATORY AFFAIRS, TOY INDUSTRY ASSOCIATION; AND RACHEL 
 WEINTRAUB, ASSISTANT GENERAL COUNSEL, CONSUMER FEDERATION OF 
                            AMERICA

    Mr. Stratton. Thank you, Mr. Chairman.
    Mr. Stearns. We just need you to turn the mike on and maybe 
pull it up to you.
    Mr. Stratton. Is that better?
    Mr. Stearns. That is much better.
    Mr. Stratton. Mr. Chairman, I am pleased to be here today 
at this very important hearing on child product safety. While 
the U.S. Consumer Product Safety Commission is concerned about 
the safety of products for all consumers, we have a special 
concern about those products that are used by our most 
vulnerable populations, particularly our children. As the 
Chairman of the Commission and as the father of two young 
daughters ages 9 and 5, I appreciate this committee's focus on 
children's products today.
    By way of background, the Consumer Product Safety 
Commission is a relatively small, independent agency charged 
with protecting the public from unreasonable risks of serious 
injury or death from more than 15,000 types of consumer 
products. We work to achieve that mandate with 471 employees 
and an annual budget of approximately $59 million. We are a 
small agency with a big mission, and we are proud of the work 
that we do to build a safer America.
    Because of the committee's interest in our safety standards 
for children's products, I would like to discuss the 
procedures, structure and governing statutes that guide us when 
we are investigating a consumer product hazard, taking 
enforcement action, or educating the public on the subject.
    The Consumer Product Safety Act is our agency's enabling 
statute. It established the agency in 1973, defines its basic 
authority, and provides that the CPSC can develop consumer 
product safety standards to reduce or eliminate any 
unreasonable risk of injury associated with a consumer product.
    The CPSC also administers the Federal Hazardous Substances 
Act, or the FHSA, which requires that certain household 
products be labeled to alert consumers to potential hazards. 
Any toy or other article that is intended for use by children 
and that contains a hazardous substance is banned under the 
FHSA if a child can gain access to that substance. The CPSC 
also administers the Flammable Fabrics Act and the Poison 
Prevention Packaging Act.
    The CPSC's Office of Hazard Identification and Reduction 
collects information needed to assess product hazards and 
develop injury reduction strategies. In this regard, I am 
particularly proud of our new National Burn Center reporting 
system that focuses on home fire burn injuries to children 
under the age of 15. These activities lay the groundwork for 
our safety standards setting activities.
    Under our governing statutes, the CPSC must defer to 
voluntary standards rather than issue mandatory standards 
whenever compliance with a voluntary standard eliminates or 
adequately reduces the risk of injury addressed, and whenever 
it is likely that there will be substantial compliance with 
that standard by the industry.
    With regard to enforcement, the CPSC may initiate an 
investigation on its own, or an investigation may result from 
reports from firms that are required by law to report product 
hazards to the Commission. In addition, the CPSC conducts 
programs to monitor compliance with mandatory and voluntary 
standards by conducting field inspections of manufacturing 
facilities and distribution centers and making purchases at 
retail establishments or via catalogs and the Internet. The 
CPSC staff also conducts surveillance at ports of entry and 
investigates samples of imported products that are a major 
source of children's toys.
    The CPSC is empowered to seek recalls of consumer products 
that create a substantial product hazard or that violate a 
safety regulation. The word ``recall'' is a generic term in 
this case that refers to a corrective action which can include 
a repair or replacement of the defective product or a refund to 
the customer for the product.
    The CPSC's Office of Compliance seeks voluntary remedial 
action whenever possible. The recent recall of 150 million 
units of toy jewelry was achieved voluntarily. However, if the 
staff were unable to reach such a resolution, administrative 
litigation may ensue to force the recall.
    The CPSC recalls of children's products have increased 10 
percent this year from the previous year and represents 161 
million units of recalled children's products. The CPSC also 
has the authority to assess civil penalties for violations of 
the Act. In the fiscal year that just ended, the agency 
assessed over $4 million in civil penalties from companies that 
failed to comply with the Act, and I might add here 
prospectively, I think you are going to see that number go up 
in the next fiscal year.
    One area of special concern to me regarding the safety of 
products is imported children's products. China is now the No. 
1 toy producing country in the world, and the United States is 
the No. 1 toy consuming country in the world. I am proud to 
have been the first chairman of the Consumer Product Safety 
Commission to go to China. As a result of this outreach, in 
April of this year we entered into a formal Memorandum of 
Understanding with our counterparts in the government in 
Beijing to establish a formal liaison between our two agencies 
on product safety.
    I might also add, on a subsequent trip I had the 
opportunity to tour many of the toy producing or manufacturing 
factories and speak to the IOS, the International Organization 
for Standardization, Toy Committee in Guangzhou. The main 
reason for doing this was to impress upon them the need to make 
sure that toys and products are safe before they come to our 
shores.
    Mr. Chairman, protecting the American public, young and 
old, from dangerous consumer products is a critical mission, 
and our professional team at the CPSC takes it very seriously. 
Thank you again for the opportunity to discuss this important 
subject, and I am pleased to answer any questions you might 
have.
    [The prepared statement of Hon. Hal Stratton follows:]
   Prepared Statement of Hon. Hal Stratton, Chairman, U.S. Consumer 
                       Product Safety Commission
    Thank you, Mr. Chairman, and good morning. I am pleased to be with 
you this morning for this important hearing on child product safety. 
While the U.S. Consumer Product Safety Commission (CPSC) is concerned 
about the safety of products for all consumers, we have a special 
concern about those products that are used by our most vulnerable 
populations, and those include our nation's children. As the Chairman 
of the Commission, and as the father of two young daughters ages nine 
and five, I appreciate the Committee's focus on children's products 
today.
    By way of background, the Consumer Product Safety Commission is a 
small bipartisan, independent agency charged with protecting the public 
from unreasonable risks of serious injury or death from more than 
15,000 types of consumer products under the agency's jurisdiction. We 
work to achieve that mandate with approximately 470 employees who are 
located at our headquarters office and laboratory in nearby Maryland 
and at our field locations across the country. Our annual budget is 
approximately $59 million.
    Since its inception, the CPSC has delivered critical safety 
benefits to America's families and has made a significant contribution 
to the decline in the rate of deaths and injuries related to hazardous 
consumer products. We are a small agency with a big mission, and we are 
proud of the work we do to build a safer America.
    As noted earlier, children's products are of special concern to the 
agency and to its mission. Hazards to children are associated with a 
wide range of consumer products. Examples include strangulation deaths 
from window blind cords and clothing drawstrings; swimming pool and 
other at-home drownings; lethal falls from playground equipment; fatal 
choking incidents related to some children's toys; and various hazards 
with infant products, such as highchairs, cribs, infant cushions and 
strollers.
    Head injuries in particular are a leading cause of death and 
disability to children in the United States. Studies have shown that 
children have a higher risk of head injury than adults and that 
children's head injuries are often more severe than many other injuries 
and can have life-altering consequences.
    The types of consumer products under the Commission's jurisdiction 
that are most often associated with head injuries to children include 
bicycles and playground equipment. Participation in sports is also 
associated with a high number of children's head injuries.
    The Commission is taking aggressive action across the board on 
these and other identified hazards, with a special emphasis on those 
that cause death and lasting injuries. One example of the agency's 
attention to these hazards is our work on crib safety. The Commission 
has worked on crib safety for more than 30 years on both mandatory and 
voluntary standards.
    CPSC's mandatory standards include requirements for side height, 
slat spacing, mattress fit, hazardous cut-outs and other aspects of 
crib performance and construction. The voluntary standards address 
hazards of entanglement on corner posts, slat performance and 
structural and mechanical failures.
    As a result of these efforts, infant deaths associated with cribs 
have declined significantly. In 1973 it was estimated that as many as 
200 infants died annually from injuries associated with cribs. Our most 
recent data indicates that the number of deaths has declined to about 
20 annually. However, that is still 20 deaths too many, and we continue 
to work on measures that would reduce this number.
    Since most infant deaths now occur in older, previously used cribs 
that do not meet current safety standards, the CPSC has been active 
through the media and grassroots organizations in alerting the public 
to the dangers of used or old cribs. For example, unsafe cribs are 
highlighted in our annual Recall Roundup Campaign which focused this 
year on resale outlets such as thrift stores. CPSC joined forces with 
the National Association of Resale and Thrift Shops and the Danny 
Foundation to stop resale, consignment and thrift stores from selling 
previously recalled or banned products and products that do not meet 
safety standards. Additionally, safety seminars were conducted across 
the country to educate store employees about CPSC and how to check 
their stores for hazardous products.
    The CPSC also continues to work jointly with eBay to ensure that 
dangerous products, such as older cribs and recalled products, are not 
sold on its public auction website. eBay worked with CPSC to develop a 
``children's product prompt'' which is triggered when a seller attempts 
to register a children's product for auction. The prompt urges the 
seller to review the CPSC's website to make sure their product has 
never been recalled. With baby cribs, eBay requires each seller to 
review a CPSC-developed electronic crib safety information sheet prior 
to listing their crib for auction. eBay also denies access to its 
website to persons attempting to sell any product that has been banned 
by the CPSC. These public outreach and educational efforts will 
continue as long as there are unsafe children's products being used or 
sold.
    Because of the Committee's interest in our safety standards, I 
would like to take a moment to discuss the procedures, structure and 
governing statutes that guide us when we are investigating a product 
hazard like crib safety, taking enforcement action or educating the 
public on the subject.
    The Consumer Product Safety Act (CPSA) is CPSC's umbrella statute. 
It established the agency in 1973, defines its basic authority, and 
provides that the CPSC can develop a standard to reduce or eliminate 
any unreasonable risk of injury associated with a consumer product. The 
CPSA also provides the authority to ban a product if there is no 
feasible standard, and it gives CPSC authority to pursue recalls for 
products that present a substantial product hazard or violate a safety 
standard regulation.
    The Federal Hazardous Substances Act (FHSA) requires that certain 
hazardous household products bear cautionary labeling to alert 
consumers to potential hazards and to inform them of the measures they 
need to take to protect themselves from those hazards. This Act gives 
the Commission authority to ban by regulation a hazardous substance if 
it determines that the cautionary labeling is inadequate to protect the 
public.
    Any toy or other article that is intended for use by children and 
that contains a hazardous substance is also banned under the FHSA if a 
child can gain access to the substance. In addition, the Act gives the 
Commission authority to ban by regulation any toy, or other article 
intended for use by children which presents a mechanical, electrical or 
thermal hazard and risk of serious injury.
    The CPSC's actions with regard to promulgating, enforcing and 
publicizing safety standards for children's products and other products 
are directed by these governing statutes, as well as the Flammable 
Fabrics Act and the Poison Prevention Packaging Act.
    The CPSC's Office of Hazard Identification and Reduction (HIR) 
collects the information needed to assess product hazards and develop 
injury reduction strategies. The staff collects data on consumer 
product related injuries and deaths, as well as hazard exposure 
information, for those products under our jurisdiction. Along with 
CPSC's Field Operations Directorate, HIR also investigates specific 
injury cases to gain additional knowledge about injuries or hazards and 
how the reported product was involved.
    In addition to news reports and consumer complaints, staff collects 
information about product related injuries treated in hospital 
emergency rooms through our National Electronic Injury Surveillance 
System (NEISS). This unique system provides statistically valid 
national estimates of product-related injuries from a probability 
sample of hospital emergency rooms across the country and is the 
foundation for many Commission activities.
    CPSC also collects mortality data with the purchase and review of 
death certificates covering product-related deaths from all 50 states. 
Our Medical Examiner and Coroner Alert Project collects and reviews 
additional death reports from participants throughout the country.
    We are continuing to strengthen our data collection and analysis 
process. Recent improvements include the implementation of our National 
Burn Center Reporting System which focuses on children's clothing and 
the development of new statistical systems for collecting information 
on consumer product related fire deaths and injuries. Staff also 
conducts several types of studies each year, including special 
investigations and emerging hazard evaluations.
    These activities lay the groundwork for our standard setting 
activities. Under our governing statutes, CPSC must defer to voluntary 
safety standards rather than issue mandatory standards whenever 
compliance with a voluntary standard eliminates or adequately reduces 
the risk of injury addressed and whenever it is likely that there will 
be substantial compliance with that voluntary standard.
    Our governing statutes dictate a unique multi-stage rulemaking 
process that is initiated with work on studies and findings to prepare 
an Advance Notice of Proposed Rulemaking or ANPR. Using toys and 
children's products as an example under the Federal Hazardous 
Substances Act, a proceeding to adopt a mandatory safety standard must 
be commenced by publication in the Federal Register of an ANPR that (1) 
describes the product to be regulated; (2) summarizes other regulatory 
alternatives being considered by the Commission; (3) notes any existing 
voluntary standard and why it appears to be inadequate; (4) invites 
comment on the information published; (5) invites submission of an 
existing standard as an alternative; and (6) invites commitment to 
develop a new voluntary standard.
    Following the required public comment period, the Commission may 
determine that a voluntary standard submitted to CPSC in response to 
the ANPR would adequately reduce risk, and the Commission may proceed 
to publish it as a proposed standard. If the Commission determines that 
the voluntary standard would adequately reduce the risk and it is 
likely that there would be substantial compliance, the Commission must 
then terminate the formal rulemaking and notify the public of its 
decision to rely on the voluntary standard. Before relying on the 
voluntary standard in this manner, the Commission must provide a 
reasonable opportunity for public comment.
    If the Commission instead decides it must proceed with a mandatory 
rule, the next step in the process is the issuance of a Notice of 
Proposed Rulemaking or NPR, which must contain the text of the proposed 
rule. In addition, the Commission must issue a preliminary regulatory 
analysis which must contain (1) a preliminary description of the 
potential benefits and costs of the proposed rule; (2) an explanation 
why any standard submitted to the Commission was rejected; (3) an 
explanation why any proposal to develop a voluntary standard was not 
adequate; and (4) a description of any reasonable alternatives to the 
proposed rule, their potential costs and benefits, and why they would 
not be proposed.
    To then proceed to a Final Rule following the second public comment 
period, the Commission must publish a final regulatory analysis 
containing (1) a description of the potential benefits and costs of the 
regulation; (2) a description of any alternatives that were considered 
by the Commission and reasons why they were rejected; and (3) a summary 
of any significant issues raised in the public comments and the 
Commission's assessment of them.
    The final rule must also include specific findings: (1) that the 
toy (or other article intended for use by children) is a ``hazardous 
substance,'' that is, it poses an unreasonable risk of injury or 
illness due to a thermal or mechanical hazard, or otherwise; (2) that 
any voluntary standard is not likely to adequately reduce the risk or 
that substantial compliance is unlikely; (3) that the benefits expected 
from the standard bear a reasonable relationship to its costs; and (4) 
that the standard imposes the least burdensome requirement which 
prevents or adequately reduces the risk.
    This three-step rulemaking process meets the requirements of our 
governing statutes.
    When a ban or a safety standard is established, it is CPSC's Office 
of Compliance, working closely with the agency's field staff, that 
enforces the law. There are two primary types of investigations that 
the staff conducts. One focuses on identifying products that violate 
specific safety standards already issued by the Commission. The other 
type of investigation is designed to identify defective products that 
may present a substantial risk of injury to the public but are not 
subject to specific CPSC standards.
    The CPSC may start an investigation on its own initiative or an 
investigation may result from statutorily required reports from firms. 
Under Section 15 of the Consumer Product Safety Act, manufacturers, 
retailers and distributors must report to the Commission when they 
obtain information that one of their products is defective, fails to 
comply with a safety standard, or creates an unreasonable risk of 
serious injury or death. The purpose of the reporting requirements is 
to provide the Commission with sufficient information to determine 
whether a product presents a hazard that requires remedial action under 
one of the statutes that the Commission administers.
    The compliance staff may start an investigation based on any of the 
following types of information: (1) hotline complaints, web 
communications, newspaper reports or written correspondence from 
consumers or Freedom of Information Act requesters; (2) reports or 
inquiries from state and local governments, federal agencies, or 
Congress; (3) coroner, medical examiner, fire marshal, or police 
reports; (4) reports from fire investigators and forensic testing 
laboratories; (5) data from the National Electronic Injury Information 
System; (6) incident reports in the Commission's data bases; or (7) 
trade complaints, news clippings and reports from insurers.
    In addition, CPSC conducts programs to monitor compliance with 
mandatory and voluntary standards by conducting field inspections of 
manufacturing facilities and distribution centers and making purchases 
at retail establishments or via catalogs or the internet. Numerous 
sample collections have been conducted over the last several years at a 
variety of mass merchandise, general department and dollar type stores 
to monitor compliance with CPSC requirements. Additionally, there have 
been a number of voluntary recalls involving dollar type stores. CPSC 
staff has worked with owners of these stores on an individual basis to 
ensure future compliance with our requirements.
    Staff also conducts surveillance and sampling of imported products 
at ports of entry. The CPSC has conducted 255 seizures and detentions 
of over 6.7 million units in 2004. This is an increase from 181 
seizures and 1.6 million units in the previous year. Some of CPSC's 
most effective efforts at identifying violative unsafe products have 
been through working with the U.S. Customs Service identifying these 
products before their distribution in the United States. With Customs' 
increased attention on homeland security, the CPSC has adapted to new 
enforcement tools including internet surveillance and working with 
Customs' data base systems to identify incoming shipments and collect 
samples on their arrival at U.S. ports.
    Both the Consumer Product Safety Act and the Federal Hazardous 
Substances Act permit the Commission to seek public notice and 
corrective action for defective products that create a substantial risk 
of injury to consumers.
    The CPSC uses the generic term ``recall'' to refer to corrective 
action plans that are announced to the public; however, by law 
``recalls'' may involve (at the election of the product's manufacturer, 
distributor or retailer) the repair or replacement of the defective 
product, or the refund of its purchase price less a reasonable 
allowance for use.
    The Office of Compliance staff seeks voluntary remedial action, 
whenever possible. The recent recall of 150 million units of toy 
jewelry, some of it containing accessible lead, was achieved 
voluntarily. However, if staff is unable to reach such a resolution, 
litigation may be necessary.
    The Commission may institute an administrative proceeding to 
require a manufacturer, distributor, or retailer to recall a banned 
product or a defective product that presents a substantial product 
hazard. If after a formal hearing before an administrative law judge 
and any appeal to the Commission, the Commission determines that a 
product presents a substantial hazard warranting a recall, it can order 
the firm to give public notice of the hazard and order the firm to 
repair or replace the product or refund the purchase price of the 
product less a reasonable allowance for use at the election of the 
firm.
    CPSC recalls have increased significantly this year. In 2004 the 
agency has conducted 356 recalls which is a 27% increase from the 
previous year. These recalls cover more than 200 million consumer 
products as compared to 41 million the previous year.
    The CPSC's Office of General Counsel is responsible for working 
with the Department of Justice in bringing actions in federal court. 
Once a case is referred to the Department of Justice, the Compliance 
staff works with the Department and the Office of General Counsel on 
the case.
    The CPSC has the authority to assess civil penalties. In the fiscal 
year that just ended, CPSC assessed $4.2 million in civil penalties 
from companies that violated federal safety standards. That figure 
represents an increase over the previous year's figure of $2 million. 
CPSC's statutes also authorize criminal penalties in appropriate cases. 
Only last week, a grand jury in California handed down an indictment 
against an individual who was caught reselling unsafe toys after a CPSC 
recall.
    One key element of any recall is targeted public notice to inform 
owners of a recalled product of the hazard and remedies available. 
Among the tools CPSC's Office of Information and Public Affairs uses to 
disseminate information about recalls are: joint press releases; video 
news releases; point of purchase posters; direct mail; paid 
advertisements; web site notification; and notification to outside 
organizations, such as pediatricians or day care providers, who in turn 
provide information to consumers.
    Additionally, CPSC continues to be pro-active in improving recall 
effectiveness. I earlier mentioned our initiative with thrift stores 
and web-based sales. Recently, we launched the Neighborhood Safety 
Network. Through this initiative CPSC is partnering with other 
government agencies and private sector organizations to communicate 
important safety messages to vulnerable and hard-to-reach populations.
    Our goal is to build a network of community leaders and 
organizations that are in regular contact with people who may not get 
their news from traditional media outlets or may not have access to 
computers or may not trust the federal government as the messenger. We 
are working with the American Academy of Pediatrics, Boys and Girls 
Clubs of America, Indian Health Services and many others to distribute 
CPSC's safety messages. Meetings with groups such as the National 
Safety Council, National Safe Kids Coalition, HHS and others have 
generated a great deal of support for the project.
    Another initiative that I am particularly proud of is Recalls.gov. 
In conjunction with five other federal agencies, CPSC introduced this 
new website that will benefit your constituents and provide 
streamlined, one-stop service in alerting consumers to unsafe, 
hazardous or defective products. Consumers can now go to one single 
resource to get information on all government recalls. They no longer 
have to try to figure out which government agency has jurisdiction for 
the particular product about which they are concerned.
    Additionally, your constituents can register at this site to 
receive instant e-mail alerts on all product safety recalls, and 
consumers can use the site to report a problem with a consumer product, 
motor vehicle, boat, food or environmental product. CPSC has developed 
a sample press release for Congressional offices to consider using in 
their home districts.
    Before closing, I would like to address one other subject of 
special concern to me regarding the safety of children's products, and 
that is importation. As a government regulator, I recognize that given 
the vast expansion of international trade and increasing safety 
concerns of consumers about the goods they purchase, such as toys for 
their children, the need for closer cooperation and coordination 
between international government authorities is more important now than 
ever before.
    China is now the number one toy producing country in the world, and 
the United States is the number one toy consuming country in the world. 
Developing a strong understanding regarding consumer product safety 
with China is essential. I am proud to be the first Chairman of the 
Consumer Product Safety Commission to go to China. As a result of this 
outreach, in April of this year, I signed a formal Memorandum of 
Understanding with Chinese Minister Li of the General Administration of 
Quality Supervision, Inspection and Quarantine, to establish a formal 
liaison between our two agencies on product safety.
    I returned to China in June to be the first commissioner to ever 
address the International Organization for Standardization on toy 
safety. With homeland security concerns taking precedence at our 
nation's ports of entry, it is more important than ever to get to the 
source of these safety problems before they are ever loaded onto a ship 
bound for America. I can assure the Committee that I will go wherever I 
have to go to achieve that goal.
    In closing, I would be remiss to come before the Committee and not 
commend to you the outstanding professional staff at the CPSC. Since 
starting as Chairman two years ago, I have had the opportunity to meet 
and work with some of the most competent and talented civil servants 
and professionals that you can imagine. These people have the kind of 
technical and scientific skills that the private sector would reward 
handsomely, but they have chosen instead a career of public service and 
they dedicate themselves to improving product safety for America's 
families.
    Mr. Chairman, thank you again for the opportunity to discuss this 
important subject, and I am pleased to answer your questions.

    Mr. Stearns. Thank you, Chairman. I will start with my 
questions. I guess probably the main question you are going to 
get, I will ask it from the beginning, do you have enough 
resources, in your humble opinion, to adequately enforce the 
standards to provide the necessary manpower to identify the 
products and the enforcement mechanism to establish a recall? 
Do you feel that you have the resources to do so?
    Mr. Stratton. Mr. Chairman, I think that you can always do 
more with more resources. So it depends on what the Congress 
wants us to do. We carry out our mandate as in the various Acts 
that I have listed quite well with the resources that we have, 
and I can tell you that as the numbers of our employees have 
dropped and frankly as our funds have dropped in real terms, I 
see people actually working harder to get the job done.
    So I think we are doing the job that you contemplate us to 
do. If you want us to do other things beyond what we are doing 
or if you want us to do more of what we are doing----
    Mr. Stearns. I understand. But I would say your agency is 
one of the few that I have seen in government that not 
necessarily has increased. I mean, I asked the staff of the 
Budget back 30 years ago and I see the Budget today, and you 
have less people. But I mean you could also argue that we have 
technology and we have a lot more resources in terms of 
technical support that would increase productivity. So that 
would indicate that maybe your resources are adequate. But I 
will tell you something that I want to commend you for, and 
that is going to China. I think all of us know that China is 
importing a lot of toys, and obviously a lot of these toys 
might be counterfeit. So maybe you could tell me and to the 
American people, what assurance do we have that you have a 
handle on this enormous influx of toys from China? Since you 
don't have any control over the standards in China, what can 
you do in terms of reciprocity, and what about the counterfeit 
toys that are coming in from China?
    Mr. Stratton. Thank you, Mr. Chairman. That is an excellent 
question and one I like to talk about, because one of the good 
things about our particular Act, the Consumer Product Safety 
Act, is that it imposes the obligations of that Act upon not 
just the manufacturers of the products but also on the 
distributors, the importers, and the retailers. Therefore, when 
a company like a big retailer, Wal-Mart, Target, or someone 
like that sells a defective product, they are just as liable 
under our Act as are the manufacturers of that particular 
product. What this means is, it is of great interest to these 
retailers because they know we are going to go out and seek to 
fine them if we have to or seek the recalls if we need to. So 
it is in their interest to make sure that those products coming 
over are safe, and they have a lot of people over there 
themselves working to do that.
    Now, in our opinion, of course that is not enough. We also 
look to the importers and the distributors. Frankly, that is 
who we mainly go after when we have violative products, the 
importers because they are the persons, they are the entity 
that is closest to the particular product at the time.
    And then, finally, that is what the effort of going to 
China is for. It was very important, many people thought, to 
visit China and impress upon the authorities over there how 
important it was that we not have to rely on these safeguards 
once they get to the United States to make sure products are 
safe, but to make sure that when they are manufactured and when 
they are shipped over that they are safe. And that is what we 
have done in our Memorandum of Understanding where we have 
opened up discussions and lines of communication and exchange 
of information with China. So we have a threefold way to try to 
make sure those products are safe.
    Now, you talked about counterfeit products. And the one 
thing we worry about mostly in the counterfeit area are 
counterfeit certifications, such as an Underwriters Laboratory 
or an ELT, Electronic Testing Laboratory, fake counterfeit mark 
on various products coming over. Now, our statute does not 
grant us any authority over counterfeit articles. Our statute 
tells us we are supposed to make sure that products are safe, 
not that they are not counterfeit. So technically, we don't 
have any real authority to make any kind of determinations 
based upon whether something is counterfeit or not.
    What our policy is, however, at least since I have been 
there, is if we have a particular product that has a mark on 
it, like UL, that turns out to be counterfeit, we immediately 
suspect that it is not as good as it ought to be, and then we 
tend to investigate it and make the determination as to whether 
it is safe or not or whether it should be pulled off the 
market. Now, sometimes we find that--I think most of the time 
we probably find that they are of lesser standard than a 
typical one that would have a proper mark, but I have been told 
by staff at the agency that we have actually found products 
that were better than the actual noncounterfeited products. So 
that is where counterfeiting comes into play with us. That is, 
once again, primarily an FTC and a Customs matter, but we are 
cooperating with Customs, UL, and others.
    We recently had an interdiction of about $6 million worth 
of counterfeit marked products, including counterfeit extension 
cords, that we worked closely with Homeland Security and with 
UL to do.
    Mr. Stearns. If I can take the liberty to merely--Kolcraft, 
and on the second panel we are going to have, Ms. Ginzel is 
going to testify. And is Kolcraft, was this product that she is 
going to testify about, was this built in the United States? 
You don't know. Okay.
    Mr. Stratton. Is this a crib?
    Mr. Stearns. It is a crib. But, I mean, you don't know if 
the crib was built in the United States or did it come from 
outside the country?
    Mr. Stratton. I am sorry, I don't know that.
    Mr. Stearns. Okay. I guess, does the CPSC have the adequate 
tools to go after people like a manufacturer of Kolcraft in 
which this product collapsed? Do you need anything from 
Congress in terms of more legislation to give you more 
authority or something like that?
    Mr. Stratton. Well, Mr. Chairman, I don't think we need 
more authority. If, for instance, that crib was manufactured in 
China, then there is nothing you can do to give us jurisdiction 
over the manufacturer in China. If we do have jurisdiction over 
the product, the question is how do you enforce that against a 
foreign manufacturer. That is why we enforce those things 
against the distributors, the importers, and the retailers in 
the United States.
    Mr. Stearns. I am told it wasn't made in China. So I guess, 
do you have--so you are saying this morning you have the tools 
to go after companies that do not implement adequate recall 
efforts. In other words, what tools does the CPSC have to go 
after companies that do not implement adequate recall efforts 
like Kolcraft?
    Mr. Stratton. Well, we have the ability----
    Mr. Stearns. And are the tools sufficient? I guess that is 
my question.
    Mr. Stratton. Mr. Chairman, I think that they are. I am not 
sure what happened in that particular case. I believe that was 
a recalled crib and it had been recalled. Now, we do have a 
problem in getting back all of the products that we can get 
back from out there when they have been recalled. It is 
difficult at times to get the word out to consumers. The 
Congresswoman mentioned that, and I certainly agree with that. 
It is a very difficult, big task to get the word about recalls 
out to every single person who has that particular product. It 
is also difficult sometimes to get consumers to return the 
product. Not necessarily in this particular case, but just 
because you notify people doesn't mean that they are going to 
comply with the recall. So there are a lot of issues regarding 
recalls that aren't necessarily susceptible to having better 
legislation. There are practical problems that we deal with 
every day, how do you get the word out to 150 million or to 7 
million people who have purchased a product around the United 
States, and then what incentives can you give them to return 
them.
    Mr. Stearns. My time has expired. Ms. Schakowsky.
    Ms. Schakowsky. Mr. Stratton, I am glad that you are here. 
I am disappointed that you can't stay, because my hope was that 
you would be able to hear from the entire panel that follows 
you. And I certainly hope that you will carefully read all of 
the testimony of all of the witnesses who at great effort and 
often emotional expense have come here to tell their stories. 
So that I hope that you will look at those as well.
    I am interested to note that you are neither asking for 
more money. And I am assuming that, since the agency has not 
been reauthorized for--CPSC has not been reauthorized since 
1990, are you saying that were it to be reauthorized you 
wouldn't seek any additional or different powers?
    Mr. Stratton. Well, can I answer the first question first? 
We are seeking more money through the appropriations process.
    Ms. Schakowsky. What is your request?
    Mr. Stratton. $63 million is our current request. So each 
year we do seek more money. And, frankly, the Commission over 
the years has sought a lot more money than has been 
appropriated. So it is not for want of asking----
    Ms. Schakowsky. But you feel that you have sufficient 
resources? I just heard you say that.
    Mr. Stratton. Well, I feel like we are doing a good job 
with the resources that we have. We can always do more with 
more money.
    Ms. Schakowsky. Let me give you an example. Regarding 
establishing standards for baby bath seats, comments were due 
March of 2003. Since then, nothing has happened. In 2003, 14 
children died in baby bath seats, and now a total of 119 
children have died in bath seats. Is it reasonable for 
consumers, for parents to have this lag time? Why haven't you 
moved on this?
    Mr. Stratton. Congresswoman, I don't think it is 
reasonable. I think it is too long of a time, and I think it 
takes too long to move. In this particular case, if you 
reviewed the record on this, you know that the entire 
Commission unanimously supported the new regulation on baby 
bath seats. At the same time, the voluntary standards 
committee, the third-party standards committee, was working on 
a voluntary standard which is identical to our particular 
standard, or substantially identical I am told, and, frankly, 
they promulgated that standard before we finalized ours. And 
currently, the staff is reviewing whether that particular 
standard is going to be substantially complied with. And if it 
is, as you pointed out in your opening statement, the law 
requires us to stop the process of going forward.
    I personally on this one would prefer the mandatory 
standard, and I have evidenced that to staff, and we have had 
long discussions, and I have had discussions with my general 
counsel on it, but I have been informed that in order to go 
forward properly we have to determine whether there is going to 
be substantial compliance with the voluntary standard.
    Let me mention one other thing that is of great concern.
    Ms. Schakowsky. And you don't see this as a problem, as an 
impediment to saving the lives of children that the law 
requires you to go through these kinds of machinations in order 
to get to a place where we stop? I mean, how many have died in 
2004? How many might die next year if we don't move on this 
thing?
    Mr. Stratton. I think the process needs to go faster. I 
think it needs to be faster, and I think our particular 
statute, as you are well aware, imposes about double the number 
of steps that you have to take to pass a normal regulation.
    Ms. Schakowsky. Well, maybe we ought to reconsider that in 
a reauthorization then.
    Let me ask another question, because time is limited here. 
The yo-yo ball, I heard you say on national television that you 
took that ball away from your children. You don't want them to 
play with the yo-yo ball. Is that correct?
    Mr. Stratton. I did take it away from my daughter.
    Ms. Schakowsky. And there has been 300-plus incident 
reports. And in the correspondence that I have had with you and 
that Lisa Lipin has had with you, you have said that there were 
no permanent injuries and that there was some risk of 
strangulation. I am curious why nothing more than a mild 
warning to parents, since you think it is not suitable for your 
children--and we are going to hear pretty dramatic testimony 
about what happened not only to Lisa's son, but she has been in 
touch with parents all over the country who have been near 
death and unconscious. How could you say that there is no 
permanent injuries and that it is not sufficient to recall this 
product?
    Mr. Stratton. When we first started looking at this 
particular toy prior to even hearing from any of the people in 
this room, our compliance staff, our engineering staff, our 
hazards reduction staff, our human factors staff all got into 
the act working on--and including the lab, working on this to 
determine whether we could actually make the showing that this 
was a substantial product hazard to recall it. They worked on 
this about 5 or 6 months. They then came to me with the warning 
that I think is a strong warning, not just a mild warning, it 
is a strong warning. But, nevertheless, they came to me and 
they said, Mr. Chairman, you know, we cannot provide you with 
the data on this to make the showing under the statute that 
this particular product needs to be recalled.
    Ms. Schakowsky. What does it take then? Does a child have 
to die?
    Mr. Stratton. No, a child does not have to die. We hundreds 
of recalls every year where children do not die, but most of 
those are voluntary recalls. In fact, almost everything we do 
is a voluntary recall. Once again, getting back to the 
procedure in our agency, to do a mandatory recall takes years, 
virtually years.
    Ms. Schakowsky. Think about what you are saying. Think 
about that, what you are communicating to parents, that it 
takes years to have a mandatory recall of a product that poses 
a serious and real and possibly fatal threat to children in our 
country. Don't you think that we need to do better?
    Mr. Stratton. We do need to do better. We strive every day 
to do better. But let me just put the yo-yo ball in 
perspective. We have--in looking at the data on the yo-yo 
balls, we have approximately 10 emergency room visits from yo-
yo balls. We have in the same time period--this is for 2003--67 
emergency room visits for tether balls. This would translate 
into approximately 1,700 tether ball emergency room visits, 
32,000 emergency room visits from softballs, and 99,000 
emergency room visits from baseballs. So just because 99,000 
people get hurt with baseballs every year, we don't eliminate 
baseballs from the market. There are things that people 
consider to be worthy. And it is not the baseball that is 
causing the problem. Kids are going to play with baseballs.
    Ms. Schakowsky. So let me get it clear. You are equating a 
yo-yo ball that can easily wrap around a neck with a baseball 
as a threat?
    Mr. Stratton. Absolutely not. I am telling you that I have 
99,000 emergency room visits from baseballs and I have well 
less than that, I have 10 known emergency room visits from yo-
yo balls.
    Ms. Schakowsky. And is that how we do it? That we don't 
evaluate the possibility of this toy--obviously there is more 
baseballs than there are yo-yo balls. And it seems like a no-
brainer to me, that if you would take this away from your 
children, if you have well over 300 complaints, if you have 
children that are blue in the face and passed out, who have eye 
damage, permanent eye damage because of a yo-yo ball, that it 
might merit a recall.
    I know my time has more than expired. I am hoping we could 
do another round though, Mr. Chairman. I ask for that.
    Mr. Stearns. I thank the gentlelady.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I am going to just, 
on a one note Johnny here on this, I want to ask the Chairman, 
has the Federal Government approached, specifically the 
Department of Commerce, have they worked with you to try to 
educate you on the kids.us Web site? Is this the first you 
heard of that site?
    Mr. Stratton. This is the first I have heard of it, 
Congressman.
    Mr. Shimkus. And, Mr. Chairman, I think we need to talk to 
the Department, because that is one of their requirements under 
the law, is to not only help advertise it across the country 
but also to look at relevant Federal agencies that might be 
involved and engaged in this. You know, and really, the 
discussion is meritorious because there is an educational 
aspect that can be done. I have small children, so, you know, I 
kind of understand what they are dealing with these days. One 
is 11, one is 9, and one is 4. And the 4-year-old, I asked him 
just last week, what did you learn in preschool? And he said 
healthy foods. Like what? Like carrots. And we eat a lot of 
carrots at home. And I said what else did you learn? And he 
says junk food. Like--and I was thinking like daddy eats 
probably is what I was thinking.
    But my point is, as we learn that education is the key, 
kids will push their parents to eliminate things that they are 
learning in school that are dangerous to them. They will go to 
parents and say, why are you smoking? We learned in school that 
smoking is bad.
    So I am going to continue to push the aspect of not just 
for you--and I think I have made my point--but also the 
consumer groups that will be testifying afterwards to look at 
this safe site for kids under the age of 13 to help educate. I 
mean, even if you are the toy industry and you are still going 
to sell and market this yo-yo ball, you may want to go up on 
the net and say, hey, you know, just like we do legal, there is 
concerns. Or, as we are talking about these child seats in the 
bath tub, which we used for Daniel and I used for Joshua--now, 
Joshua doesn't ask me to say that because he is 9 now. But 
Daniel did, and they are very helpful when you are a parent, 
but you still have to be present. And reiterating that fact 
that you still have to be present when you are using this child 
seat in the bath tub could also help save lives.
    Mr. Chairman, that is my focus. Again, I applaud the 
hearing. It is okay that we discuss and debate and talk about 
child safety. We were successful through this committee doing 
that with child safety seats, as you know, which we passed and 
signed into law, and we helped change the way that we have new 
standards. We had very old standards for car seats for 
children. Within the last couple of years we changed that; we 
have created higher standards with industry cooperation. That 
is another way where the Internet could help educate kids. They 
are going to see their brother put into a 15-year-old child 
safety seat and they are going to say, hey, no, that is not 
good enough, mom, dad. It doesn't have the padding on the left 
or the right.
    So I will--that is kind of my focus. I appreciate it. It is 
not really a question, it is just I want you all to take 
advantage of it and look at that site, and let us get up and 
make good use of it, and I yield back my time.
    Mr. Stearns. The gentleman yields back the balance of his 
time.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and I would like 
unanimous consent to place my statement into the record.
    [The prepared statement of Hon. Gene Green follows:]
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    I'd like to thank Chairman Stearns for holding this hearing and 
Ranking Member Schakowsky for brining light to this important issue.
    First, I'd like thank Ms. Ginzel for being here today to testify. 
It takes a brave person to come before a body such as this to talk 
about the tragic loss of a loved one. I hope this committee will 
address this issue in a way that will make it even less likely that an 
accident such as Danny's will happen again.
    I have 2 children and they're now adults so it's been a while since 
I have had to make purchases for a child. However, with my daughter and 
son-in-law expecting, I'm now back in the market for toys and items 
that will be essential to the development and entertainment of my 
grandchild.
    Given that I'll be a proud grandfather soon, I'd like to think that 
we've come a long way in toy safety since my children were very young 
in the 1970's and it seems we have. We have moved from an estimated 200 
deaths due to faulty cribs in the early 70's to 20 today. This is 
evidence of great progress, but as Chairman Stratton mentions in his 
testimony, that is 20 deaths too many.
    With out a doubt, this decrease in deaths and injuries related to 
faulty products relating to children has a lot to do with the creation 
of the Consumer Product Safety Commission in the early 70's. The CPSC 
opened its doors the same year my oldest child was born, and since then 
has been able to assist in recalling those products that are most 
dangerous to our children.
    However, according to the statistics I've seen in this panel's 
testimony, recalls only yielded a 16 percent return rate in 1997 and 
this is the most recent year we have recall data on. It concerns me 
that millions of recalled products are still in our homes. While I 
understand the CPSC has made great improvements in making recalls more 
effective in the last few years, I believe this committee needs to 
address how the federal government can work with industry to make these 
recalls more effective.
    I'm a co-sponsor of Ms. Schakowsky's legislation that would set 
safety standards for durable infant and toddler products. The fact that 
there are no mandatory safety standards for items such as play yards, 
strollers and high chairs concerns me. I hope this hearing can bring us 
closer to considering this important legislation.
    I look forward to hearing this panel's testimony and learning how 
we can make our children and grandchildren safer.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. Stearns. So ordered.
    Mr. Green. And I want to thank both the Chairman and 
ranking member for this hearing. Some of us, my kids are long 
grown.
    Mr. Shimkus. Grandpa.
    Mr. Green. Not quite. Almost. Some of my colleagues know my 
daughter is expecting our first grandchild, so I am getting 
more interested in things for our children.
    One of the things I was noticing over the weekend, because 
my wife was talking to me about getting a crib for our house. 
And I said we have that one up in the attic. And my daughter, 
who explained to me that is probably not sufficient because it 
was in 1973 when she was born, her crib. So--and I know our 
district is not a wealthy area and we have a lot of what we 
call in the auto industry after-market use of products, and I 
have garage sales that seem like they go on 7 days a week, flea 
markets and everything else, and that bothers me. So obviously 
we have a lot of pre-standardization, whether they are 
voluntary standards or what the CPSC has said is mandatory. 
And, again, I think public information, whether it is over the 
Internet, whether it is things you issue, are very important to 
consumers. Because I know of no parent--a good example from my 
colleague from Illinois, Mr. Shimkus, is the car seats, because 
we do an event where we give car seats to people. And we find 
out that people, you know, they hand these car seats down not 
only from child to child but also from generation to 
generation. And those are not safe by any means. The ones I 
used in the 1970's are nowhere near adequate for today.
    In your testimony, Mr. Chairman, you say that CPSC is not 
allowed to set mandatory standards for products if the industry 
establishes voluntary standards that are deemed adequate. And 
how long does it take to establish, whether it is voluntary 
standards or the mandatory? I would assume an industry would 
establish--when I was in business, I always wanted to do it 
myself instead of having somebody telling me how to do it. How 
long does it take to get a voluntary standard, for example?
    Mr. Stratton. Well, that depends, Congressman. I think you 
can maybe--depending upon the product, you can get a voluntary 
standard in a year or two. I happen to know that the more 
recent hot water heater standard took about 10 years just to 
get a voluntary standard.
    Mr. Green. And your agency participates in that. And I 
guess you will suggest that to industry, whether it is toys or 
baby equipment or whatever, that a voluntary standard would be 
much quicker. And, you know, in all honesty, we hear that 
lawsuits are so prevalent, and I would think that someone would 
be more interested in a voluntary standard just because, if a 
child gets hurt by something, you know, I may not be able to 
own that Chinese factory but I will sure find out who the 
retailer of those toys or products are.
    How long does it take to get a mandatory standard? You said 
10 years for a water heater. How long does it take, for 
example, for an upgrade, if we find something on the--a good 
example that was mentioned earlier, the yo-yo ball? What is an 
example on that? Is there a voluntary standard on that? Of 
course, I assume it is all produced overseas.
    Mr. Stratton. Congressman, to give you an example. When I 
came into the Commission 2 years ago, I began to oversee two 
standards that we were working on. The CPSC has never passed a 
major rule or regulation under the Federal definition. We have 
never done that, and we are working on two now. One is on a 
flammability safety standard for upholstered furniture. The 
other one is for mattresses. The petition for a flammability 
standard for furniture was filed in 1994. There was a lot of 
preliminary work that went on before that. The one for 
mattresses was filed in 1997. And we are going to have a 
package, I am happy to say, on the mattresses by the end of 
this month, and you will have a regulation that the Commission 
will vote on on a new cutting edge standard for mattresses, and 
in November we are going to have the furniture flammability 
standard come out in a package from our staff, and it will be 
ready to be commented on and then voted on.
    Mr. Green. Seven years would be, that would be the average?
    Mr. Stratton. I hesitate to say what the average is. But 
with the procedure and with all of the stakeholders that are 
involved and all of the legal requirements that are involved, 
it takes a very long time to pass a standard.
    Mr. Green. Let me ask another question, because since 
talking to a lot of retailers most of our toys, for example, 
are made in China. And I am glad you are aggressively trying to 
deal with that. We have that problem in lots of manufacturing, 
the standards maybe in China are so much different from ours. 
And are you, for example, if Babies-R-Us imports X number of 
toys, I assume Babies-R-Us is such a large retailer they would 
have some interest in making sure that whatever they are 
importing meets not only your standards or their industry 
standards, but also that they don't want to be sued by some 
irate parent or definitely not an irate grandparent. Who 
inspects those when they come in? Is it just left to the 
retailer?
    Mr. Stratton. Well, some of them are inspected by U.S. 
Customs Service, and by our staff. We have staff at the ports, 
which is where I am going later today to tour and to work with 
Customs at the Port of Los Angeles, which is the biggest port.
    Mr. Green. The biggest port for the Far East.
    Mr. Stratton. So it is done there. But, like Customs, we 
don't do nearly all of them. And that is why we do have to rely 
upon the importers, holding their feet to the fire, and also 
holding the retailers' feet to the fire. I believe that the 
retailers, most all of them, certainly the ones you are talking 
about, have people right there in the factories, right there in 
China making sure on a day-to-day basis that these toys are 
built to standard.
    Mr. Green. Okay. Mr. Chairman, I appreciate my time. Thank 
you, again. Thank you for calling this hearing and raising 
attention to the issue.
    Mr. Stearns. Thank you.
    Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman.
    Chairman, in your statement, I am--just a couple of trivia 
type questions here. You had mentioned that in 2004 the 
agencies conducted 356 recalls, a 27 percent increase from the 
prior year, covering more than 200 million consumer products 
compared to 41 the previous year. It sounds like you are doing 
a pretty decent job here. As another parent of a 10-year-old, a 
6-year-old, and a 4-year-old, obviously we have got a lot of 
toys and one of my favorite places to shop is a store called 
Nobbies that sells just basically the stuff that you get at 
little fairs and stuff, and I love it because they are about 50 
cents apiece as opposed to the--and break very quickly; they 
just break a little bit sooner than the more expensive versions 
is all.
    As a parent, I know I have a certain responsibility. But as 
a parent I am curious; with 200 million consumer products that 
you have dealt with, that CPSC has dealt with this year, 
generally what are some of those? Does it fall in one 
particular category of toys or products.
    Second, I am curious as to how those 200 million come to 
your attention. Is it by consumer complaints? Is it by 
inspections at the ports? How do you find out about 200 million 
products that are potentially unsafe?
    Mr. Stratton. The way that we find out about most of the 
products that result in recalls is reports by the manufacturer 
or the retailer. They are required by the CPSA, Consumer 
Product Safety Act, to immediately report any product that has 
a known product hazard. If they do not, we are able to fine--
fine is not the legal term--up to $1.65 million. I can assure 
members, nobody likes to be fined by the Consumer Product 
Safety Commission. It does not matter how much it is; it is 
like getting on TV and knowing you have a product that you have 
been fined for and that you have not reported. That is the way 
we find out about most of them.
    We also find out from consumer complaints and from the 
media from time to time, and then we do have across the country 
our staff that goes in and shops the stores. We go in and buy 
various products in stores. They go in and inspect things, as 
well, in the stores to see if things are meeting standards.
    Frankly, it is mostly the reports that we get from the 
manufacturers because of the very severe legal requirement they 
have on them.
    Mr. Terry. Do you feel this severe legal requirement is 
effective? I call it a self-report. How do you feel; do we 
catch the vast majority, 100 percent, 90 percent, versus just 
the percent that stay quiet and let them be distributed 
throughout our toy stores?
    Mr. Stratton. I don't know the number. I know it is taken 
very seriously by the industry. Easily the most contentious 
issue I have had to deal with at the Consumer Product Safety 
Commission with the industry are these penalties. We are 
involved with a number of them now, trying to figure out better 
ways for them to report. There is no doubt in my mind they take 
it very seriously.
    Mr. Terry. How many fines have you been able to levy to 
make your point?
    Mr. Stratton. The number was 4.2 million this last year. It 
will probably be a little more than that in the upcoming year. 
It was down the previous year, so these fluctuate from time to 
time. The Commission started taking the penalty situation 
seriously in the year 2000. Prior to that time penalties were 
not an issue. As you can see from the graph, they have gone up 
substantially since that time. We are using it more and more.
    Mr. Terry. And you feel that is effective and getting their 
attention? Self-reporting is up, and do you feel that is why 
you have 200 million in 2004 versus 41 million the prior year?
    Mr. Stratton. Based upon what I hear, what people say to 
me, I know it is effective and I know it is the biggest concern 
folks have when it comes to having to deal with the Commission 
from a penalty standpoint.
    Mr. Terry. Getting back to my initial question, is there 
any particular category that makes up the predominant area of 
recalls?
    Mr. Stratton. Talking about toys?
    Mr. Terry. Toys. Or child products. And/or.
    Mr. Stratton. Last year we had 11 deaths from toys in the 
country of children under the age of 15. Almost all of those 
were choking hazards. Three or four were balloons that children 
choked on. The others are small balls. So the biggest concern I 
have always had as a parent--because I go home to the 
laboratory every night with a 9- and 5-year-old--are things 
that kids could choke on.
    Small parts--we have a small-parts rule that indicates that 
you cannot have a toy made for children age 3 and under with 
small parts that can come off with a certain amount of 
pressure. That, and sharp points; those things that are obvious 
are the other things that are the biggest things to look for.
    Mr. Terry. Products, any products particularly inherently 
more dangerous?
    Mr. Stratton. We talked about baseballs. I mean, you see a 
number of injuries with baseballs.
    Bicycles. We have 650,000 emergency room visits a year from 
bicycles.
    Scooters. There are plenty of things out there that injure 
people.
    Mr. Terry. Thank you. That is all, Mr. Chairman.
    Mr. Stearns. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I am a very interested observer, although like a lot of us 
in the Congress, we are in the doughnut hole. My son is 23 and 
single. I don't know how he got to be 23. He bicycled, he 
scootered, he surfed, he played baseball and football. Poorly 
but aggressively. He did the merry-go-round, the monkey bars, 
the swings, and always came off the swing for that big jump 
that you can get at the top of the arc. He still loves trees 
and has not broken anything, amazingly, from a tree. He has 
other ways.
    I guess my concern is I don't think we should take lightly 
three deaths from a specific toy, or 300 complaints. But if I 
heard you correctly, the fact is that your ability--
government's ability in this case, is to, one, set standards 
that even if they are voluntary, if they are adhered to, will 
make safer product; if they are not adhered to, will clearly 
put companies at risk of product liability claims, higher 
losses if they are sued and the like.
    We can certainly require marking and education on the 
products, and we have done that. Congress has done that in many 
areas, cigarettes being the most notable. We can sponsor 
education with our own money or with industry's money, and we 
can operate in a prohibition mode of saying thou shall not 
import, you will not have that. Those are the tools we have in 
government.
    If I understand correctly, the ranking member seems to 
think that prohibition is an important tool here, and I would 
like you to respond if I have missed it somewhere, that if we 
want to save lives and prevent injury, baseball, football, all 
small balls, balloons, especially at birthday parties where 
there are multiple young children, and I guess I am throwing in 
monkey bars and everything else in the way of exercise 
equipment, including bicycling, should be part of that 
prohibition and we would save a lot of lives, wouldn't we?
    Mr. Stratton. If you eliminated all of those products?
    Mr. Issa. Yes, sir.
    Mr. Stratton. I suppose you would.
    Mr. Issa. My question is what would kids go to then, under 
the sink and the Clorox bottle? Isn't there an inevitability if 
you do not do your best to have well-described, well-regulated, 
well-regulated toys from quality manufacturers, that the 
alternative is they will do what we did as kids, made our own 
toys, most of which were far more lethal?
    Mr. Stratton. I am sure that is correct. I went through the 
same thing when I was a kid. Frankly, based on what I do with 
my kids, I am surprised I am here.
    Mr. Issa. I do have one question and I don't want to appear 
to be making light of this hearing. I think it is very 
important. I heard an unconscionably long process that you 
inherited 2 years ago when you came in, not unlike our ability 
to move legislation here; 7 years is not considered to be 
unreasonable for significant actions.
    What can we do here in the Congress, possibly even on this 
committee, to empower you to dramatically increase the speed at 
which you can operate to point out changes necessary, either 
voluntarily or in other ways, and what can we do to help you 
enforce compliance?
    Mr. Stratton. Let me make sure I understand the question. 
Your question is directed toward compliance or toward 
promulgation of safety regulations?
    Mr. Issa. First of all, safety regulations. If the pet rock 
were around for more than 7 years at its heyday, that would be 
great. But if the pet rock were dangerous, we would quit making 
and selling them in about 5 years.
    Mr. Stratton. We have a three-step process by which we have 
to go about promulgating regulations. I am told that other 
agencies in the Federal Government only have to do this process 
when it is a major regulation, yet we have to do it on all 
regulations. I have the staff here, and many of our people have 
been at this agency 30 years and know this better than I do.
    Mr. Issa. They have seen 2 or 3 regulations concluded.
    Mr. Stratton. There are not that many regulations, but I 
think that doubles the time that it takes us to promulgate the 
regulation. When you take a situation right now that we are in 
where we have a consensus amongst all of our stakeholders 
regarding a new mattress flammability regulation, yet we have 
to proceed through what I think are unnecessary steps, I think 
some improvement could be made in our enabling legislation 
maybe to put us on the same footing as other agencies in the 
Federal Government as far as going forward with regulations.
    Mr. Issa. I would look forward with my staff to helping 
author such legislation. I am also quite certain that the 
chairman and ranking member would look forward to assisting in 
that, and that could be the greatest benefit of today's 
hearing. Thank you.
    Mr. Stearns. The ranking member has requested another 
round. I had suggested she could ask one more question. I know 
you have a flight at Dulles a little after noon.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    We talked about voluntary standards. My understanding is 
that the process for setting voluntary standards ends with a 
vote among the stakeholders; is that correct?
    Mr. Stratton. It is a vote on the voluntary standard 
committee. You could call them stakeholders. I have not heard 
them referred to like that, but it is whoever is on that 
particular voluntary committee.
    Ms. Schakowsky. I am going to quote from Marla Felcher who 
is one of her witnesses, her book. ``As a final step the group 
as a whole, the manufacturers, engineers, testing labs, recall 
consultants and the consumer advocates will vote to accept or 
reject the new voluntary standard for carriers.'' Each 
organization gets one vote. That is, each manufacturer, testing 
lab, consultant, and consumer group, except the CPSC. The 
agency is required to participate in the discussions, but it is 
not allowed to vote. ``Outnumbered by the manufacturers and 
their service providers, the consumer advocates rarely win.''
    It seems to me that a process where the people who stand to 
profit from the sale of a product, that they are the ones who 
establish a voluntary standard so they can comply or not comply 
because it is voluntary, and they get to vote and in a way 
stack the vote by having the larger number, how can that be in 
the public interest?
    Mr. Stratton. Well, I can tell you what we do that is a 
check on that process. We do not acknowledge the voluntary 
standard until it has been reviewed by our technical staff and 
they determine that it adequately meets the risk to be 
remedied. Second, that it is able to be complied with.
    So CPSC professional staff make a determination before CPSC 
acknowledges that standard. It doesn't really matter who has 
voted on it or who has not voted on it, it is whether CPSC 
staff has made that determination on behalf of the agency and 
the government.
    Ms. Schakowsky. But they are not making an independent 
judgment just given the facts. They have to examine what the 
vote is. I am just saying it seems to me that by the very 
nature of the process, it is skewed toward the interest of the 
manufacturers and those who stand to profit, rather than just 
an objective analysis, which I think is what is required.
    Mr. Stratton. I understand your point of view, but I will 
quarrel with whether they are making an independent judgment. 
When they look at these, it does not matter who participated in 
it. It could have been all consumer groups or all industry. 
They look at it to determine from an engineering standpoint, 
human factors standpoint, consumer products safety standpoint, 
if it meets the risk that is to be remedied.
    Mr. Stearns. Chairman Stratton, thank you very much for 
your time. Obviously some day we hope to reauthorize your 
agency. We have put in for it. It is not as high priority as it 
should be, we on this committee think it is. We appreciate your 
time, and we thank all of those people who have served so many 
years in the agency for all of their hard work. I think the 
American public appreciates their efforts, too.
    Mr. Stratton. Thank you. We are completely at the 
committee's service when it comes to reauthorization because we 
understand that process, and we are happy to cooperate however 
we can be of help.
    Mr. Stearns. We have had other agencies we have not done 
either, and you might think in terms of what you would like to 
see. We have an election, God willing I come back, and I would 
like to sit down and see what you would like to see, including 
more funding. Funding over the last 30 years has not kept up, 
certainly, compared to other government agencies. You are doing 
an important job with a lot less money, inflationary-wise than 
other agencies.
    With that, we will bring up the second panel, and we 
appreciate your patience for waiting.
    Mr. Stearns. Ms. Ginzel, we will start with you.

                    STATEMENT OF LINDA GINZEL

    Ms. Ginzel. Good morning, Chairman Stearns and Ranking 
Member Schakowsky. It is a privilege to be here today. My name 
is Linda Ginzel. I am on the faculty at the University of 
Chicago Business School. I live in Chicago, Illinois with my 
husband and three sons.
    I would like to start by telling you about my son, Danny. 
Danny was a healthy, happy, and beautiful kid. He had this 
amazing ability to engage anyone he met. When he was about a 
year old, I took him to New York to visit my sister. The 
passenger in the seat in the plane next to me played with him, 
and the flight attendants took turns holding him. Four months 
after that trip to New York, Danny was dead. Among the 
condolences my family received, there was an e-mail from one of 
the passengers on that flight. She had heard about Danny's 
death on the local news, remembered his name, remembered I told 
her I taught at the university, and she realized he was that 
sweet baby she played with on the airplane.
    She wrote, ``I remember what a wonderful baby he was on 
that flight and how others were amazed as well.'' She was also 
mourning his death.
    I am here to testify today because 6 years ago on May 12, 
1998, my 16-month-old son Danny was strangled at his licensed 
day care in my Chicago neighborhood, Lincoln Park. I am here to 
testify because there is absolutely no reason for this to 
happen to anyone ever again. Danny's death was completely 
preventable.
    My beautiful little boy was killed by a defective 
children's product, a crib, the Playskool Travel-Lite portable 
crib. It was where he napped in the afternoon at his child care 
home. This particular crib has hinges in the top rail that 
allow it to fold flat for storage. This crib is defective 
because it can collapse unexpectedly with a child still inside, 
and this is what happened to my son. The top rails collapsed 
into a V-shape around his neck, and, like an animal trap, his 
own weight caused the V-shape to close tighter and tighter 
around his neck. It cutoff the oxygen to his brain. This crib 
collapsed without falling over, without making a sound, and 
within minutes my son was dead.
    At first we thought it was a freak accident. No one to be 
blamed, it was no one's fault. It was a loving child care 
provider, there was no rhyme or reason; bad luck, bad timing. 
But the day after we buried our son we learned that it was not 
an accident. We read in the Chicago Tribune that the Playskool 
Travel-Lite crib had been recalled 5 years ago. The recall was 
in 1993 and Danny died in 1998. We discovered to our horror 
that he was the fifth baby whose neck was caught between the 
top rails of that crib, that brand of crib.
    The first baby, Arnold from Commerce, California, died in 
1991.
    Elisa from Solon Springs, Arkansas died in 1992.
    The third baby, Elizabeth from Agoura, California, died in 
the crib on January 5, 1993.
    It was only after three dead children that the Playskool 
Travel-Lite crib was recalled with a press release issued on 
March 10, 1993.
    Two years after the recall, the fourth baby, William from 
Indianapolis, Indiana, died in that Playskool crib, and my 
beautiful Danny was the fifth child to be strangled to death.
    We read in the newspaper that morning, we learned it was 
not a freak accident. Danny was dead because the Playskool crib 
is a death trap. We could not understand why babies were still 
dying after a recall. What exactly was involved in a recall we 
did not know. We later discovered that the recall was a half-
hearted effort and less than 9,000 of the 12,000 original cribs 
were still unaccounted for when the CPSC closed its books on 
the recall in June 1996.
    Remember, the great majority of these cribs were still out 
there, and we did everything we could to notify other parents, 
word of mouth, e-mail, media. Our family felt an enormous sense 
of responsibility because we had the information, we knew how 
many of those deadly cribs were out there. We believed they 
would kill again, and they did.
    Although my family worked with all of the strength that we 
could muster in those weeks and months after Danny was killed, 
just 3 months after my son died, another baby in New Jersey 
died exactly the same way, the sixth victim of the Playskool 
Travel-Lite crib.
    I am sure you are asking the question, how is it three 
children died after this product was recalled? My husband and I 
have spent 6 agonizing years trying to find the answers to this 
question.
    The most agonizing thing that we learned is that Danny did 
not have to die. I hope that during the question and answer, 
you ask me about the steps that could have been taken that 
would have prevented his death.
    Danny was caught between commerce and politics. Danny is 
dead because the system of juvenile product safety is broken. 
Congress bears a major responsibility and you have the power to 
fix it. The case of the Playskool Travel-Lite crib that killed 
my son exemplifies all of the elements of this broken system. I 
came to Washington today to help you understand what can be 
done. I beg you to use your power to act on behalf of all 
children.
    But there is an even more profound point. What the CPSC 
should do, what the American public should do, what Congress 
should do, is to ask the real question: Why are there so many 
recalls to begin with? Why are there so many defective 
children's products on the market? Why is anybody, from fly by-
night operations to trusted giants like Hasbro, allowed to sell 
deadly products?
    Danny did not die because of a woefully ineffective recall 
alone; he died like too many other children, because children's 
products are not required to be tested before they are sold.
    If I may say something about the product that killed my 
son, in the case of the product that killed my son, Hasbro put 
its trusted Playskool name on the product that killed him. They 
did not perform a single safety test or find out whether the 
manufacturer, Kolcraft, did any safety testing. There is no 
documentation to be found anywhere that this crib was ever 
tested. What is the result? Less than 12,000 Playskool Travel-
Lite cribs were sold, and six babies died. That is one dead 
baby for every 2,000 cribs sold. Let me say that again. One 
dead baby for every 2,000 cribs sold. Your son or daughter has 
much higher odds of surviving a tour of duty in Iraq than being 
placed in a Playskool Travel-Lite crib.
    My Danny did not have to die. He died because the system is 
broken. You have the power to fix it and I sincerely hope you 
have the will to do so. I am not asking you to create a 
children's product safety system that completely prevents death 
and injury. All I am asking is that you not allow other 
children to die like my son did. No one's child should die in 
an untested, dangerous children's product, and no one should 
die because manufacturers refuse to take responsibility for 
their deadly products.
    We hope that other families will not suffer a tragedy as 
senseless as the one we have had to endure since the death of 
our beloved son. Without Danny, our family is forever 
incomplete. We hope that the work we do in his loving memory 
will protect the children you love, and we hope that you have 
the courage to help us.
    Mr. Stearns. Ms. Ginzel, thank you. We understand CPSC's 
general counsel is in the audience, and we have some of the 
employees. Even though the Chairman has left, they are kind 
enough to have their people stay to hear you, and we appreciate 
your advocacy and you have come to the right place.
    [The prepared statement of Linda Ginzel follows:]
                   Prepared Statement of Linda Ginzel
    My name is Linda Ginzel. I am a mother. I am also a professor at 
the University of Chicago. My husband, Boaz Keysar, is also a 
professor. This means that like many parents we rely on childcare.
    Six years ago, on May 12, 1998, my 16\1/2\ month-old son Danny was 
strangled at his licensed childcare facility in our Chicago 
neighborhood. There is absolutely no reason for this to ever happen 
again. Danny's death was completely preventable.
    My little boy was killed by a defective children's product--a 
crib--the Playskool Travel-Lite portable crib--where he napped in the 
afternoons at his childcare home.
    This crib has hinges in the top rails that allow it to collapse and 
fold flat for storage. This type of crib is defective because it can 
collapse unexpectedly while the product is in use.
    According to the U.S. Consumer Product Safety Commission (CPSC), 
Danny was not the first baby to die in the Playskool Travel-Lite, he 
was not the second, he was not the third, and he was not even the 
fourth child to die. My son, Daniel, was the fifth baby whose neck was 
caught between the top rails of this crib when it collapsed and 
strangled him to death. On August 19, 1998--three months after Danny 
died--10-month old William Curran of Fair Haven, New Jersey became this 
crib's sixth victim.
    After we buried our son, my husband and I learned that 1.5 million 
portable cribs of similar collapsing, top-rail design by five 
manufacturers have been recalled, but according to the Chicago Tribune 
(June 15, 1998) over one million may still be in use. As of today, the 
official death count from these portable cribs stands at 16 children. 
The most recent victim was killed in March 2004 in rural Wisconsin.
    How is it possible that my son died in this way? How can such a 
deadly crib be found in a licensed childcare facility? You should know 
that just eight days before this crib collapsed and killed my son, his 
childcare home passed a routine inspection conducted by the Illinois 
Department of Children and Family Services.
    Since Danny died, my husband and I have learned a lot about the 
factors that contributed to our son's death: ineffective recall and 
failure to test. Unfortunately, the problem goes far beyond collapsing 
portable cribs. The CPSC recalls children's products at a rate of two 
per week. In 2004 alone, this amounted to over 23 million individual 
units, not including car seats. Because the CPSC relies largely on 
asking the media to inform the public, many people remain unaware of 
the dangers.
    In the case of the Playskool Travel-lite crib that killed my son, 
here is what we learned about the ineffective recall and failure to 
warn the public about this deadly product:

<bullet> It was only after three children died that Kolcraft recalled the 
        Playskool crib.
<bullet> Though the crib was proven deadly, Kolcraft and Hasbro sought to 
        minimize the publicity surrounding the recall and resisted the 
        efforts of the US Consumer Product Safety Commission (CPSC) to 
        make the public aware of the hazards.
<bullet> In a 1993 letter, the CPSC reprimanded Kolcraft for failing to 
        provide adequate notice to the public: ``The [. . .] thin stock 
        `poster' went to retailers had many serious shortcomings, in 
        our view. It did not even have the Playskool name on the 
        crib.'' The letter lists additional shortcomings of Kolcraft's 
        minimal recall efforts and concludes, ``This was a very 
        disappointing effort and it is not likely to be an effective 
        public notice mechanism.''
<bullet> Despite such failings, Kolcraft continued to resist the CPSC's 
        attempts to warn parents.
<bullet> Kolcraft then sought to conceal the issue by asking the CPSC to purge 
        its files of the CPSC's letter that detailed their egregious 
        conduct.
<bullet> Less that one month after the recall, Kolcraft tried to reduce 
        publicity. They questioned the need for distribution of a 
        video, and tried to justify putting an end to the publicity on 
        the bass of low recall rates being common in the industry.
<bullet> They also objected to the number of videotapes suggested by the CPSC 
        saying that they ``did not want the message replayed.''
<bullet> By including confidentiality provisions in settlements with other 
        Playskool Travel-lite victims, they further suppressed 
        information about the deadly crib.
<bullet> Hasbro was not involved in the recall. For years, Hasbro did nothing 
        to inform the public, despite its multi billion-dollar ability 
        to reach the public when they want to sell their products.
<bullet> Only after the sixth baby died in August of 1998, and after we sent a 
        letter to Hasbro CEO Alan Hassenfeld asking them to inform 
        registered child care facilities of the recall, did they do so. 
        This is, of course, too little, too late.
<bullet> Hasbro and Kolcraft continue to have the moral and ethical obligation 
        to warn their trusting customers. Yet, eight years after the 
        recall, six babies are dead and thousands of these deadly cribs 
        are still unaccounted for. Hasbro and Kolcraft have failed this 
        ethical test miserably.
    There is absolutely no reason for another child to die due to the 
lack of information about unsafe, recalled products. Manufacturers use 
advertising to reach into our homes everyday when they want to sell us 
their new products, why can't they could do the same to retrieve their 
recalled products?
    But beyond informing parents and caregivers about recalls, we 
learned that recalls are only a symptom of the real problem: a lack of 
adequate pre-market safety testing. Here's what we learned about the 
crib that killed our son:

<bullet> The Playskool crib was originally designed by Ed Johnson, a draftsman 
        with a high school education.
<bullet> Kolcraft could not produce documents to show that any safety tests 
        were actually performed.
<bullet> There was no evidence that any safety engineer tested the crib before 
        it was sold.
<bullet> Hasbro did not verify that any testing was conducted. They asked 
        Kolcraft to provide test data but they never received any.
<bullet> Despite putting their Playskool brand name on the crib, Hasbro never 
        tested the product.
    As a result, Boaz and I founded a nonprofit organization called 
Kids In Danger dedicated to improving children's product safety 
(www.KidsInDanger.org). The immediate focus of our efforts was on 
educating the public about dangerous children's products. We believe 
that people have the right to know that their children could be in 
danger. This is an area where there is so much to be done that even 
small efforts can make a big difference in getting the word out to the 
public and saving lives. Our long-term goal is to convince 
manufacturers to design safer children's products and to do pre-market 
safety tests on their products instead of using our homes and childcare 
facilities as their testing grounds.
    We hope that other families will not suffer a tragedy as senseless 
as the one we have had to endure since the death of our beloved son. We 
hope that the work we do in Danny's loving memory will protect the 
children you love and we hope that you have the will and the courage to 
help us. Thank you.

    Mr. Stearns. Ms. Lipin.

                   STATEMENT OF LISA A. LIPIN

    Ms. Lipin. Chairman Stearns and Ranking Member Schakowsky 
and members of the subcommittee, my name is Lisa Lipin and I 
thank you for the opportunity to address you today.
    I am a Chicago mother who started a grassroots campaign to 
get the Yo-Yo Water Ball banned for sale, not recalled, in the 
United States after my then 5-year-old son Andrew was strangled 
by the cord, this toy, when I was home. Thankfully I was there 
to save Andrew from what I believe could have been a fatal 
incident. These toys are being imported from overseas without 
any government regulation as to the safety of the product. Yo-
Yo Water Balls were included in the 2003 list of dangerous toys 
released by both the U.S. Pirg and World Against Toys Causing 
Harm.
    I am concerned about the way that CPSC has addressed the 
safety concerns of this toy. I contacted the CPSC on July 23, 
2003 to file an incident report. I was dumbfounded to find out 
that the CPSC was aware of the potential strangulation hazard. 
I asked when the CPSC planned to make the public aware of the 
dangers of the toy, and was told that a public statement would 
not be released until their investigation was complete. I 
expressed my dissatisfaction with the CPSC's decision to not 
make this important child safety information public. I feared 
that a child was going to be seriously if not fatally injured. 
Thus, I decided that I would take action by bringing this issue 
to the public.
    I contacted the media of various retailers, consumer 
advocates, and politicians. I spoke with parents around the 
country whose children had been injured. One parent, Tina 
Schreffler, a New Jersey mother, recently testified before the 
New Jersey Assembly Consumer Affair Committee regarding a 
proposed State ban. Together, Tina and I have designed a 
dedicated Web site to show parents the dangers of this toy.
    I contacted CEOs of major corporations to ask them to 
remove the toy from their inventory. Most told me that they 
rely heavily on the CPSC to determine the safety of the toy. 
Some companies were unaware there was a safety issue related to 
this toy at all. Because of the limited action taken by the 
CPSC, these companies considered this toy safe. I provided 
companies with documentation of the severity and true nature of 
injuries which is from information gleaned from documents I had 
received from the CPSC myself. My efforts persuaded 7-Eleven 
Corporation to issue an advisory to 5,300 stores around the 
country that this toy could not be sold. eBay, which initially 
told me they that they relied on the CPSC for direction, and 
therefore would not prohibit the sale of the toy, reversed 
their decision just 2 days later after they received my 
document and the letter from Congresswoman Schakowsky.
    Kmart has recently agreed to stop selling the toys, and KB 
Toys has agreed to cancel all future orders. However, these 
toys are still available because there are companies, such as 
Oriental Trading Company in Nebraska, who continue to sell the 
toy despite the information I have provided.
    I contacted Congresswoman Schakowsky about my concerns and 
to ask for congressional assistance. She promptly got involved 
in this issue by writing letters to Chairman Stratton about our 
shared concerns. Most recently she spearheaded a letter to 
retailers urging them to remove the toy from store shelves.
    My son Andrew and I also testified in front of the Illinois 
Health and Human Services Committee earlier this year. At my 
urging, there has been a bipartisan effort in the State of 
Illinois and the writing of a resolution which urged the CPSC 
to ban the toy.
    I receive monthly updates from the CPSC on injuries 
pertaining to Yo-Yo Water Balls. The CPSC has been very 
cooperative in providing the information I have requested. To 
date, there have been 392 reported injuries, 279 of those were 
strangulations. The CPSC issued a mild advisory stating there 
were no lasting injuries, and 7 cases had reported broken blood 
vessels and the toy posed only a low but potential risk of 
strangulation. This advisory failed to mention the true nature 
of reported injuries. Parents that I have spoken to have 
reported that they found their children unconscious, lifeless, 
gasping for air, foaming at the mouth, red, blue and purple in 
color. Some children have been hospitalized for strangulation. 
One child that passed out in Ohio, a 4-year old, suffered a 
skull fracture. Some children have sustained permanent eye 
injuries, requiring them to have lens implants and glaucoma 
surgeries.
    I have tried to get the CPSC to ban the toy and issue a new 
advisory stating the true nature of injuries, both of which the 
CPSC has refused to do. While Mr. Stratton mentioned there are 
only 10 emergency room visits pertaining to this toy, that is 
only those emergency rooms that are part of the NEIS System, 
the National Emergency Injury Surveillance System; but what 
about the ERs in this country that are not part of this system?
    A major concern with the CPSC is the manner in which 
important safety information is disseminated to the public. 
Many parents I spoke to told me while the CPSC investigator who 
originally came to their home promised there would be follow-
up, there was none. It appears to me the response of the CPSC 
is perfunctory. They do not seem to look past their statutory 
mandate to expose real dangers that they know exist. The 
consumer believes that when they call and report an incident, 
that it will be counted as an actual occurrence. What they are 
not told is if they do not return a signed copy of the report, 
it is considered unconfirmed by the CPSC, and no follow-up 
happens.
    Another problem is with the reporting system. When new 
incidents about the Yo-Yo Water Balls have come up recently, 
the CPSC just sends a letter to the parents and tells them that 
they will look into the matter and these parents believe their 
incident is isolated.
    Another administrative concern is the CPSC's inability to 
have all of the data collected in one place. When I requested a 
summary of all incident reports, my own report was not included 
due to the way it was coded. How many other reports have been 
misplaced in the data base?
    Last, the CPSC has a tendency to minimize the severity of 
the reported injuries by using the term ``partially 
strangled.'' This issue is one of being strangled. The fact 
that death did not occur does not lessen that injury. It must 
be remembered that children have been injured, not partially 
injured, some even permanently injured.
    It appears, whether true or not, that the CPSC attempts to 
minimize the risks of at least this toy, the Yo-Yo Water Ball. 
This seems more apparent as other countries have banned the toy 
with far less injuries.
    The CPSC claims that a proposed ban does not meet 
congressionally mandated standards. I believe the CPSC should 
itself be bringing this concern to Congress. A product is not 
any less dangerous to children just because it is perceived to 
have not met the congressional standard. This country needs to 
change the guidelines for determining the safety of all 
children's products, including toys. Thank you.
    [The prepared statement of Lisa A. Lipin follows:]
          Prepared Statement of Lisa A. Lipin, Kids In Danger
    Chairman Stearns and Ranking Member Schakowsky and members of this 
committee, I want to thank you for the opportunity to address you 
today. My name is Lisa Lipin. I am a Chicago mother who started a grass 
roots campaign to get the Yo-Yo Water Ball banned for sale in the 
United States after my then, 5 year old son, Andrew was strangled by 
the cord. Thankfully, I was home to save Andrew from what I believe 
could have been a fatal incident.
    These toys are being imported from overseas without any government 
regulation as to the safety of the product. Yo-Yo Water Balls were 
included in the 2003 lists of dangerous toys released by both U.S. Pirg 
and W.A.T.C.H. (World Against Toys Causing Harm). The toy is a rubber 
type liquid filled ball attached to a stretchy rubber cord. The toy is 
inexpensive selling for $1-$2. Most often the toy is packaged in a 
clear plastic bag without any warning label. The cord of the toy can 
stretch several feet posing a strangulation risk to children. The 
liquid inside the ball has also been proven by some to be toxic and 
flammable. This toy has been banned for sale in countries around the 
world. But in the United States it is still available.
    I am concerned about the way in which the CPSC has addressed the 
safety concerns of this toy. I contacted the CPSC on 7/23/03 to file an 
incident report. I was dumbfounded to find out that the CPSC was aware 
of the potential strangulation hazard. I asked when the CPSC planned on 
making the public aware of the dangers of the toy and was told that a 
public statement would not be made until their investigation was 
complete. I expressed my dissatisfaction with the CPSC's decision to 
not make this important child safety information available to the 
public. I feared that a child was going to be seriously if not fatally 
injured. Thus, I decided that I would take action by bringing this 
issue to the public. I contacted the media, various retailers, consumer 
advocates and politicians. I spoke with parents around the country 
whose children had been injured. One parent, Tina Schreffler, a NJ 
mother, recently testified for the NJ Assembly Consumer Affair 
Committee regarding a proposed state ban. Together, Tina & I have 
worked to bring this issue to parents around the country by designing a 
dedicated website to the Dangers of the Yo-Yo Water Ball.
    I contacted CEO's of major corporations to ask them to remove the 
toy from their inventory. Most told me they rely heavily on the CPSC to 
determine the safety of a toy. Some companies were unaware there was a 
safety issue related to the toy. Because of the limited action taken by 
the CPSC these companies considered the toy safe. I provided these 
companies with documentation of the severity and true number of 
injuries. This was information that was gleaned from documents that I 
had received from the CPSC. My efforts persuaded 7-Eleven Corp. to 
issue an advisory to 5300 stores that this toy could not be sold. eBay, 
which initially told me that they relied on the CPSC for direction and 
therefore would not prohibit the sale of the toy, reversed their 
decision 2 days later after receiving my documentation. K-mart has 
recently agreed to stop selling the toy. KB Toys has agreed to cancel 
all future orders.
    I contacted my Congresswoman, Jan Schakowsky, about my concerns and 
to ask for congressional assistance. She promptly got involved with 
this issue by writing letters to Chairman Stratton about our shared 
concerns. Most recently, she spearheaded a letter to retailers urging 
them to remove the toy from store shelves.
    My son, Andrew and I testified in front of the Illinois Senate's 
Health & Human Services Committee earlier this year. At my urging, 
there has been a bipartisan effort in the state of Illinois in the 
writing of a Resolution urging the CPSC to ban the toy. Democratic 
State Senator Jeffrey Schoenberg and Republican State Representative 
Elizabeth Coulson sponsored this Resolution.
    I receive monthly updates from the CPSC on injuries pertaining to 
this toy. The CPSC has been very cooperative in providing the 
information that I've requested. To date, there have been 392 reported 
injuries, 279 of those were strangulations. The CPSC issued a mild 
advisory stating that there were no lasting injuries and seven cases 
had reported broken blood vessels and that the toy posed only a ``low 
but potential risk of strangulation''. This advisory failed to mention 
the true nature of reported injuries. Parents have reported that they 
have found their children unconscious, lifeless, gasping for air, 
foaming at the mouth, red, blue, and purple in color. Children have 
gone to emergency rooms and some hospitalized for strangulation. One 
child that passed out suffered a skull fracture. Some children have 
sustained permanent eye injuries requiring them to have lens implant 
and glaucoma surgery. I have continuously tried to get the CPSC to ban 
the toy and issue a new advisory stating the true nature of injuries, 
both of which the CPSC has refused to do.
    A major concern with the CPSC is the manner in which important 
safety information is disseminated to the public. The parents that I 
contacted were not aware of the CPSC Advisory. Parents told me that 
while a CPSC investigator was sent to their home, there was no 
additional follow-up as promised.
    It appears to me that the response of the CPSC is perfunctory. They 
don't seem to look past their statutory mandate to expose real dangers 
that they know exist. The consumer believes that when they call and 
report an incident that it will be counted as an actual occurrence. 
They are not told that they must return a signed copy of their report 
if it is to be considered ``confirmed'' by the CPSC. If the report is 
not returned there is no follow-up. Then the CPSC acts as if the 
incident did not occur. Another problem is with the CPSC's current 
reporting system. When new incidents about the Yo-Yo Water Ball have 
been reported the consumer receives a generic form letter stating that 
the CPSC will look into the matter leading the consumer to believe that 
their incident may be isolated.
    Another administrative concern is seemingly the CPSC's inability to 
have all of the data collected about a particular product in one place. 
When I requested a summary of all incidents reports, my own report was 
not included due to the way it was coded. How many other reports are 
misplaced in the data base?
    Lastly, the CPSC has a tendency to minimize the severity of the 
reported injuries by using the term ``partially strangled''. The issue 
is one of being strangled; the fact that death did not occur does not 
lessen the injury. It must be remembered that children have been 
injured, not partially injured, some even permanently injured. It 
appears, whether true or not, that the CPSC attempts to minimize the 
risks of at least this toy. This seems more apparent as other countries 
have banned the toy with far less injuries.
    The CPSC claims that a proposed ``ban'' does not meet 
congressionally mandated standards. I believe that the CPSC should 
itself be bringing this concern to congress. A product is not any less 
dangerous to children just because it does not meet the current 
congressional standard. This country needs to change the guidelines for 
determining the safety of all children's products including toys.
    Thank you for your time.

    Mr. Stearns. Ms. Felcher, welcome.

                  STATEMENT OF E. MARLA FELCHER

    Ms. Felcher. Good morning. I would like to thank the 
Chairman for inviting me to participate in this important 
hearing. I am going to talk briefly today about how I got into 
children's product safety, but mostly what I am going to talk 
about is what I have not been able to learn. I am going to talk 
about censorship at the agency.
    The Chairman mentioned that information can go a long way 
toward improving safety, and I agree 100 percent with that 
statement. I am here today to talk about why and how 
information parents need is not getting to them.
    First, a little background. For 20 years I spent most of my 
waking hours thinking about and doing marketing. I was a 
marketing professor at the Kellogg Graduate School of 
Management at Northwestern University, and I worked at various 
corporate marketing jobs at Gillette, Nabisco, and various 
packaged-goods companies. Yet the first I ever heard of recalls 
was when my friend's son, Danny Keysar, was killed by a 
recalled crib in 1998. I had a Ph.D. in marketing from one of 
the top business schools in the world, I had an MBA, I knew a 
lot about how to get products into homes through creative 
advertising and sales and distribution strategies, but I had 
never in 20 years thought about or been taught how to get those 
products out of homes when they proved to be dangerous. This is 
not what marketers do. They decide what color and how plush to 
make a car seat or carrier cushion, whether it will be sold in 
Babies R Us or Wal-Mart, and how much it will cost. Decisions 
regarding product recalls fall to the corporate lawyers.
    It is CPSC's job to look out for our children's interests 
while the lawyers are looking out for corporate financial 
interests. Yet the agency does not have the tools it needs, and 
lately, it seems, sometimes does not have the motivation to 
carry out their congressional mandate.
    There are more dangerous and defective children's products 
on the market today than there were 10 years ago, and the 
problem is only going to get worse.
    Why? Three reasons:
    No. 1, demand for children's products is at an all-time 
high. We seem to want and need more stuff for our kids than 
ever before.
    Second, manufacturers are under an enormous amount of 
pressure from retailers like Wal-Mart to keep their costs low. 
Parent want cheap prices. Many times they have no idea they are 
sacrificing or having to make a tradeoff between safety and 
cost. Sometimes retailers provide a hard-to-resist temptation 
to manufacturers to scrimp on safety features.
    Third, manufacturers have gotten very savvy about keeping 
negative information about their products away from the public. 
We are bombarded with ads every day about how great these 
products are, how they can improve our lives. What we do not 
hear is the other side of that equation.
    It is no accident then when a child is injured or killed by 
a product, most people do not hear about it. This is not, as 
some manufacturers would like us to believe and as I have heard 
them say, because parents are stupid or lazy or because they 
are not doing their research. It is because protective orders 
and secret settlements have become the norm in the courts, and 
because manufacturers have the power to gag CPSC regulators 
from telling the public all they know about a dangerous 
product. I would like to spend a couple of minutes to tell you 
how they do this.
    There is a little known statute in the Consumer Product 
Safety Act called 6(b). It prohibits anyone--it prohibits CPSC 
from telling anyone, a consumer reports researcher, a mother, a 
day care provider, whether a specific product is dangerous or 
safe unless the manufacturer gives their permission to the CPSC 
to reveal this information.
    If a company does not want the public to know a brand 
safety record, the CPSC is required to keep the secret. While 
it may be in a consumer's best interest to know that almost 200 
babies were injured in a Costco infant swing or more than 400 
were injured in a Costco stationary entertainer, it is 
certainly not in Costco's best interest for the public to know 
this. Yet manufacturers and CPSC routinely rely on 6(b) to keep 
life-and-death safety information away from the public.
    What effect does CPSC's 6(b) policy have on child safety? 
In 1998 I started research on what eventually became a couple 
of magazine articles and a book on baby product safety. In 
2000, after working on this product for more than a year--and I 
think it is fair to say I know more about baby product safety 
than most people--my sister got pregnant and had a baby, Liam. 
My family deemed me Liam's purchasing agent; I was the expert. 
My sister did not like her big sister being in this role, but I 
did it. It was my job to choose the safest high chair, 
stroller, and crib for Liam. Even though at this point I had 
written most of this book, I had no idea what brands to buy. 
The secrecy imposed on CPSC by the 6(b) statute kept me in the 
dark, just like it keeps millions of other families in the 
dark. I could tell my sister which products had been recalled, 
I could do that by looking at the Web site, but I could not 
tell her which products that were currently on the shelf at 
Babies R Us would be recalled the day after I bought it. 
Lacking reliable safety information, I fell back on that old 
price/quality relationship. I figured the more expensive the 
product, the safer it would be.
    I bought Liam a Peg-Perego high chair. It cost $180. A few 
weeks later it was recalled after 51 children had been 
entrapped by their heads and arms. Nothing more than sheer luck 
prevented Liam from being one of those unlucky children.
    Manufacturers and the CPSC will tell you that they warn 
consumers about dangerous products each time they issue a 
recall press release, but what they do not tell you is how 
these press releases get written. Every word that goes out to 
the public is negotiated in highly secretive meetings between 
CPSC staff and the manufacturer's lawyers.
    The president of Baby Bjorn, a company that makes baby 
carriers, once gave me insight as to what goes on in these 
meetings when he confessed that, of course it is the 
manufacturer's to play down the hazard in the press release. 
They do not want parents to be alarmed. A member of CPSC's own 
recall staff once told me that many companies balk at even 
using the word ``recall'' in the recall press release because 
parents would think they have to return the product. It is no 
wonder when it comes to recalls so many parents are confused, 
and they have no idea what to do.
    In a few weeks I am going to China with my sister where she 
is going to adopt an 18-month-old baby girl. It has been 6 
years since my friend's son Danny was killed. My nephew Liam is 
5 years old. After all this time has passed, I still do not 
know which high chair, stroller, or crib to buy for my new 
niece. This is the legacy of 6(b) and CPSC's secrecy. Thank 
you.
    [The prepared statement of E. Marla Felcher follows:]
Prepared Statement of E. Marla Felcher, Freelance Writer and Lecturer, 
         J.F. Kennedy School of Government, Harvard University
    Good morning. I'd like to thank the committee for inviting me to 
participate in this important hearing. I'm going to talk briefly today 
about how I got into the world of children's product safety, and what I 
have not been able to learn. I'm going to talk today about censorship.
    For 20 years, I spent most of my waking hours thinking about and 
doing marketing.
    I was a marketing professor at the Kellogg Graduate School of 
Management in Northwestern University, and I worked in various 
corporate marketing jobs, at Gillette, Talbots, and as a consultant to 
Nabisco, M&M Mars, Burlington Industries and Lederle Labs.
    Yet, the first I ever heard of recalls was when my friends' son 
Danny Keysar was killed by a recalled Playskool crib in 1998. I had a 
Ph.D. in marketing from one of the top business schools in the world, 
and I had an M.B.A. I knew a lot about how to get products into homes, 
through creative advertising, sales and distribution techniques, but I 
had never, in twenty years, thought about how to get those products out 
of homes when they proved to be dangerous. This is not what marketers 
do. They decide what color and how plush to make a car seat or carrier 
cushion, whether it will be sold in Babies ``R'' Us or Wal-Mart and how 
much it will cost. Decisions regarding product recalls fall to 
corporate lawyers. It is CPSC's job to look out for our children's 
interests, while the lawyers are looking out for corporate financial 
interests. Yet, the agency does not have the tools, and lately it 
seems, the motivation, to carry out their Congressional mandate.
    There are more dangerous and defective children's products on the 
market today than there were ten years ago, and the problem is likely 
to get worse. Why? There are three reasons: First, the demand for 
children's products is at an all-time high and projected to increase. 
Second: Manufacturers are under enormous pressure from retailers like 
Wal-Mart to keep their prices low, providing a sometimes hard-to-resist 
temptation to scrimp on safety features. Third: Manufacturers have 
gotten very savvy at keeping negative information about their products 
away from the public. It's no accident that when a child is injured or 
killed by a product, most people don't hear about it. This is not, as 
some manufacturers would like us to believe, because parents are stupid 
or lazy, or don't do their research. It's because protective orders and 
secret settlements have become the norm in the courts, and because 
manufacturers have the power to gag CPSC regulators from telling the 
public all that they know about a dangerous product. I'd like to spend 
what remains of my time here today discussing how they do this.
    There is a statute in the Consumer Product Safety Act, called 6(b), 
which prohibits CPSC from telling anyone--a Consumer Reports 
researcher, a mother or daycare provider--whether a specific product is 
dangerous or safe, unless the manufacturer gives the agency permission 
to do so. If a company doesn't want the public to know a brand's safety 
record, CPSC is required to keep the secret. While it may be in a 
consumer's best interest to know that almost two-hundred babies were 
injured in a Cosco infant swing or more than four-hundred injured in 
the company's stationary entertainer, it is not in Cosco's best 
interest for the public to know this. Yet, manufacturers and CPSC 
routinely rely on 6(b) to keep life-and-death safety information out of 
the public eye.
    What effect does CPSC's 6(b) policy have on child safety? In 1998 I 
started research on what eventually became a couple of magazine 
articles and a book on baby product safety. In 2000, after I had been 
working on the project for more than a year, and subsequently knew more 
than most people know about children's products, my sister had a baby, 
Liam. My family deemed me Liam's purchasing agent--it was my job to 
choose the safest high chair and stroller and crib and carrier and all 
of the other stuff parents buy. But you know what? I had no idea which 
brands to buy. The secrecy imposed on CPSC by the 6(b) statute kept me 
in the dark, just as it keeps millions of other families in the dark 
each day. I could tell my sister which products had been recalled, but 
I could not tell her which products currently on the shelf at Babies 
``R'' Us would be recalled the day after I bought it. Lacking reliable 
safety information, I fell back on the old price-quality relationship, 
deciding that the more expensive products would be the safest. I bought 
Liam a Peg Perego high chair that cost $180. A few weeks later it was 
indeed recalled--after 51children had been entrapped by their heads or 
arms. Nothing more than sheer luck prevented Liam from being one of 
those children.
    Manufacturers and the CPSC will tell you that they warn consumers 
about dangerous products each time they issue a recall press release. 
But what they don't tell you is how these press releases get written. 
Every word that goes out to the public is negotiated in highly 
secretive meetings between CPSC staff and the manufacturers' lawyers. 
The president of Baby Bjorn once gave me insight into what goes on in 
these meetings, when he confessed that it is the manufacturer's goal to 
play down the hazard in the press release. They don't want parents to 
be alarmed. A member of CPSC's recall staff once told me that many 
companies balk at even using the word recall in the recall press 
release, because they fear that parents will think the product must be 
returned. It's no wonder that, when it comes to recalls, so many 
parents are confused.
    In a few weeks I am going to China with my sister, where she is 
going to adopt an 18-month old baby girl. It's been more than six years 
since my friends' son Danny was killed by a recalled portable crib. My 
nephew Liam is almost five years old. After all of this time has 
passed, I still don't know which high chair or stroller or crib to buy 
for my new niece. This is the legacy of 6(b).

    Mr. Stearns. Thank you.
    Ms. Cowles.

                  STATEMENT OF NANCY A. COWLES

    Ms. Cowles. Good morning, Chairman Stearns, Ranking Member 
Schakowsky, and committee members. Mr. Chairman, thank you for 
this opportunity to present our views on the children's product 
safety system and ways to better protect children.
    Kids in Danger is a nonprofit organization that is 
dedicated to protecting children by improving children's 
product safety. Our mission is to promote the development of 
safer children's products, advocate for children, and educate 
the general public. We have worked with States to implement the 
Children's Product Safety Act which prohibits the sale or lease 
of recalled or dangerous children's products or their use in 
licensed child care, something not prohibited by Federal law.
    Seven states currently have such a law. We provided 
educational materials to child care providers, health care 
professionals, and parents. We work with engineering programs 
to increase the knowledge of safety and standards that 
tomorrow's designers will bring to children's products. We are 
doing all we can to protect children, and welcome this 
opportunity to speak to you about the problem and solution.
    As Congresswoman Schakowsky mentioned, a survey in Illinois 
showed that most voters believe that manufacturers are required 
to test children's products for safety before they are sold and 
that the government oversees that testing.
    I predict any poll of Americans would show a similar 
disconnect from the real situation. Most parents, care givers, 
health professionals I meet, believe that if they buy a 
stroller, a high chair, a baby swing, a playpen, especially one 
with a brand name they recognize, that someone, somewhere, has 
made sure that product is safe. After all, this is America, 
right, the land of regulations and testing and liability. They 
are shocked to learn that we have no law requiring safety 
testing and that government only takes action after a product 
is manufactured, sold, and proved to be unsafe, a very 
backwards approach in most people's eyes.
    Subsequent surveys by the group that did the original one 
show that super majorities, 97 percent, support a requirement 
for premarket safety testing, yet it is not required; and many 
products make it to store shelves that do not meet standards or 
whose design put children at risk. There are many flaws in the 
current recall system.
    Manufacturers, as Marla mentioned, have editorial veto 
power over the press release announcing the recall, allowing 
them to try and downplay the danger. The only requirement of 
the recall is the press release. Many companies do nothing 
further to publicize the recall and millions of potential users 
never hear of the danger. An effective recall, according to 
CPSC, retrieves or accounts for only 10 to 30 percent of the 
recalled products that are already in consumer hands.
    But simply improving the recall system will not prevent 
injuries and death in unsafe products. Look at just one product 
type, the rotating top rail-style portable cribs that were made 
and recalled in the 1990's. Linda lost her son in the first of 
these cribs, the Playskool Travel-Lite, but four other 
companies picked up on this untested design and used it in 
their own products. These portable cribs and play areas 
contained a deadly flaw that allowed the sides to collapse 
strangling at least 16 children. The names of these children 
and some of their stories can be found at our Web site in our 
Family Voices section.
    Of the deaths that we know of, nine took place before the 
product was ever recalled and seven took place afterwards. So 
even the most effective recall will not prevent these deaths. 
We believe the answer lies in the simple solution that most 
parents already believe is the case: All children's products 
should be tested by independent laboratories to strict safety 
standards before they are placed on store shelves. Voluntary 
standards, self-reporting have not worked.
    H.R. 2911, the Infant and Toddler Durable Product Safety 
Act, introduced by Congresswoman Schakowsky, supported by 34 
cosponsors, provides a mechanism for strong mandatory standards 
and independent safety testing before products are sold. The 
legislation would require the CPSC to set up a commission to 
set mandatory standards for durable infant and toddler 
products, those products used to care for a baby, high chairs, 
strollers, cribs, portable cribs, about 16 products in all.
    Unlike the ASTM international committee that sets voluntary 
standards, this commission must be balanced between consumers, 
testing labs, government and manufacturers. In addition to 
developing the standards or adopting current standards as 
mandatory, the commission would also develop a certification 
program for independent testing laboratories and the seal that 
would indicate that a product has been tested to these strict 
standards. Then manufacturers will contract with testing labs 
to certify their products and only products with safety seals 
can be sold in the United States. It is the only way to be sure 
that the products meant for our most vulnerable consumers are 
as safe as we can possibly make them.
    In addition, we would urge this committee and Congress to 
increase its oversight of the CPSC. While companies are 
required to file monthly reports on the effectiveness of each 
of their recalls until the recall is closed, this information 
is hidden from view, if kept at all. Congress should request an 
annual report of all recall efforts that detail the number of 
products in consumer use that are returned or accounted for and 
the efforts made to reach likely users. Perhaps if the woeful 
number shown by most manufacturers were subject to public 
scrutiny, they might make more of an effort to retrieve the 
products.
    The Consumer Product Safety Commission, with a smaller 
budget than the FDA has to oversee animal medications, has an 
enormous responsibility to keep the public safe from dangerous 
products. That responsibility is vital to the health and safety 
of our children. We urge you to give the agency the tools they 
need to do an effective job and to require them to fulfill 
their responsibility.
    [The prepared statement of Nancy A. Cowles follows:]
         Prepared Statement of Nancy A. Cowles, Kids In Danger
    Good Morning Chairman Stern and Ranking Member Schakowsky and 
Committee members. Thank you for this opportunity to present our views 
on the children's product safety system and ways to better protect 
children.
    Kids In Danger is a nonprofit organization dedicated to protecting 
children by improving children's product safety. We were founded in 
1998 by Linda Ginzel and Boaz Keysar, after the death of their son 
Danny Keysar in a poorly designed, inadequately tested and finally 
recalled portable crib. Our mission is to promote the development of 
safer children's products, advocate for children and educate the 
general public, especially parents and caregivers, about children's 
product safety.
    We have worked with states to implement the children's Product 
Safety Act which prohibits the sale or lease of recalled or dangerous 
children's products or their use in licensed childcare. Currently 7 
states have such a law. We provide educational materials on children's 
product safety to childcare providers, health care professionals, 
parents and caregivers to alert them to the minefield of dangers facing 
children. We are working with engineering programs at universities to 
increase the knowledge of safety and standards that tomorrow's 
designers will bring to children's products. We are doing all we can to 
protect children and welcome this opportunity to speak to you about the 
problem and solutions.
    In 1999, a survey in Illinois <SUP>1</SUP> showed that 79% of 
voters believed that manufacturers were required to test children's 
products for safety before they were sold and 67% erroneously believed 
that the government oversaw that testing. I predict that any poll of 
Americans would show a similar disconnect from the real situation. Most 
parents, caregivers and health professionals I meet believe that if 
they buy a stroller, high chair, baby swing, or playpen, especially a 
name brand they recognize, that someone, somewhere has made sure it is 
safe for their baby. After all, this is America, the land of 
regulations and testing and liability. They are shocked to learn that 
we have no law requiring safety testing and that the government only 
takes action after a product is manufactured, sold, and proved to be 
unsafe--a very backwards approach in most people's eyes. Subsequent 
surveys by the Coalition for Consumer Rights show that super 
majorities--97%--support a requirement for premarket safety testing. 
Yet it is still not required and many products make it to store shelves 
that do not meet standards or whose design puts children at risk.
---------------------------------------------------------------------------
    \1\ Annual Survey of Illinois Voters, Coalition for Consumer 
Rights, Chicago, Illinois 1999.
---------------------------------------------------------------------------
    There are many flaws in the current recall system. Manufacturers 
have editorial veto power over the press release announcing the recall, 
allowing them to try to downplay the danger. The only requirement is 
the press release. Many companies do nothing further to publicize the 
recall and millions of potential users never hear of the danger. An 
effective recall retrieves or accounts for only 10-30% of the recalled 
items already in consumer hands. But simply improving the recall system 
will not prevent injuries and deaths in unsafe products.
    Look just at one product type--the rotating top rail style portable 
cribs that were made and recalled in the 1990's. Linda Ginzel lost her 
son in the first of these cribs, the Playskool Travel Lite. But four 
other companies picked up on this untested design and used it in their 
own products. These portable cribs and play yards contained a deadly 
flaw that allowed the sides to collapse, strangling at least 16 
children that we are aware of. The names of these children and some of 
their stories can be found at our website www.kidsindanger.org in the 
Family Voices section. Of the deaths we are aware of, nine took place 
before the recall and seven afterwards. So even the most effective 
recall will not prevent all deaths from unsafe products.
    We believe the answer lies in the simple solution that most parents 
already believe is the case--all children's products should be tested, 
by independent laboratories, to strict safety standards, before they 
can be placed on store shelves. Voluntary standards and self-reporting 
have not worked.
    HR 2911, the Infant and Toddler Durable Product Safety Act, 
introduced by Representative Schakowsky and supported by 34 co-sponsors 
provides a mechanism for strong mandatory standards and independent 
safety testing before products are sold. The legislation would require 
the CPSC to set up a commission to set mandatory standards for durable 
infant and toddler products, those products we use to care for a baby--
high chair, stroller, crib, portable crib, etc. a total of about 16 
products. Unlike the ASTM International committee that sets the 
voluntary standards, this commission must be balanced between 
consumers, testing laboratories, government and manufacturers. In 
addition to developing the standards, or adopting current standards as 
mandatory, the commission will also develop a certification program for 
independent testing laboratories and the seal that will indicate a 
product has been independently tested to these strict standards. Then 
manufacturers will contract with testing labs to certify their products 
and only products with the safety seal can be sold in the United 
States. This is the only way to be sure that products meant for our 
most vulnerable consumers are as safe as we can possibly make them.
    In addition, we would urge this committee and Congress to increase 
its oversight of the CPSC. While companies are required to file monthly 
reports on the effectiveness of the recall, this information is hidden 
from view. Congress should request an annual report of all recalls 
efforts that detail the number of products in consumer use that are 
returned or accounted for and the efforts made to reach likely users. 
Perhaps if the woeful numbers shown by most manufacturers were subject 
to public scrutiny, they might make more of an effort to retrieve the 
products.
    The Committee should review repeat offenders--companies with 
multiple recalls of children's products. In a 2003 report, Kids In 
Danger found that several companies had as many as 12 recalls in a 
decade as well as fines for not reporting consumer injuries. While any 
company can have a recall, those that continue to rack up recalls each 
year clearly need more scrutiny to determine if they are capable of 
making safe products for children.
    We also believe that the cap on penalties should be removed. If 
penalties become a budgeted item, just the cost of doing business, they 
will never be an effective deterrent to attempts to hide injuries and 
continue to sell unsafe products.
    The US Consumer Product Safety Commission, with a smaller budget 
than the FDA has to oversee animal medications, has enormous 
responsibility to keep the public safe from dangerous products. That 
responsibility is vital to the health and safety of children. We urge 
Congress to give the agency the tools they need to do an effective job 
and to require them to fulfill their responsibility to us all.

    Mr. Stearns. Thank you.
    Mr. Klein. You have a formidable task here.

                   STATEMENT OF GARY S. KLEIN

    Mr. Klein. Yes. I am Gary Klein with the Toy Industry 
Association, and I am pleased to be here, and I want to thank 
you, Mr. Chairman, and you, Congresswoman Schakowsky, for the 
opportunity.
    It is hard to respond to some of what I have heard. I have 
two kids. They managed to reach teenagehood, somehow. 
Nevertheless, we are all parents and we all share in the 
tragedy when something like that happens. It makes it difficult 
to go through what I have to say, but I am going to give it a 
shot.
    TIA is a New York-based, not-for-profit trade association 
representing approximately 400 manufacturers, toy testing labs, 
product safety consultants, and others. Our members account for 
85 percent of the domestic toy sales, and, being global in 
character, approximately 50 percent of all toys sold worldwide.
    TIA emphasizes the importance that play has on all 
children's lives, but to ensure that all children have a 
positive play experience, our primary concern and the primary 
concern of all of our members is safety.
    Together with the U.S. Government and with consumer groups, 
TIA and its members have led the world in the development of 
toy safety standards by investing heavily in child development 
research, dynamic safety testing, quality assurance testing, 
risk analysis, and basic anthropometric studies of children. 
Moreover, since the 1930's, TIA has established a tradition of 
working with others to ensure the manufacture and distribution 
of safe toys.
    We are proud of our record of significant accomplishments 
in the area of toy safety, working with groups such as the 
National Safety Council, the National Bureau of Standards, 
ANSI, ASTM, and other groups like the International Consumer 
Product Health Safety Organization and National Safe Kids 
Campaign to advocate the need for product safety initiatives in 
both the U.S. and internationally. And, I would add, the U.S. 
standards are the model for the rest of the world in toy 
safety.
    The commitment that we have to toy safety continues today. 
In 1999, TIA launched the first year-round toy industry 
consumer Web site to assist consumers with questions and 
concerns about toy safety. Comprehensive and accurate 
information is available any time of day through a specially 
designed area on our TIA Web site.
    Under the auspices of the NBS, we led in the development of 
the first comprehensive safety standard in 1976, and in 1986 
the standard was revised and designated under ASTM 
international. The current standard is the ASTM F963-03 
Standard Consumer Safety Specification For Toy Safety. The 
newest revision was published in January 2004.
    All Federal toy safety regulations which appear in the CFR 
title 16 are referenced, and additional requirements and test 
methods are included. The standard is reviewed and revised 
every 5 years, at a minimum, and on an ad hoc basis to address 
newly identified hazards.
    ASTM is one of the largest voluntary standard development 
organizations in the world, and, while technically, as we have 
heard time and again, the standards are termed voluntary, that 
is a misnomer. Not only is adherence to the standard required 
for membership in TIA, every retailer requires a separate test. 
A manufacturer of a toy can have it tested by a certified lab 
and try to get it to a retailer, and that retailer will demand 
that it be tested by its own lab again. Try to get a toy on a 
retailer's shelf without having it tested. You cannot. Wal-Mart 
requires testing in its own lab. Toys R Us requires their 
testing. They all have their own labs, and it is regardless 
whether it has already been tested by a certified lab. And many 
of our members have state-of-the-art, up-to-date labs that go 
through these tests.
    I invite any Member of Congress to come visit one of these 
labs and at one of these factories. Visit the Mattel lab out in 
California and see the tests that those products go through.
    We also put on seminars in China. Last October we conducted 
roughly a week-long safety seminar for Chinese manufacturers of 
toys, going over the revised ASTM standards. That was attended 
by several hundred representatives from Chinese factories. They 
were all translated into Chinese and we had members of the CPSC 
over there to engage in discussions as well as senior safety 
executives from all of our members.
    I would like to talk a little about age appropriateness. We 
have heard about toys. Any product, toy or not, can pose a 
potential hazard in the hands of a child for whom it is not 
intended. For this reason almost all toy packages include a 
suggested age range for use. To help manufacturers reach a 
greater degree of consistency in age-grading practices and age 
labeling on toy packages, CPSC publishes a guide for age-
labeling toys.
    Additionally, specific cautionary labeling requirements 
specified by the ASTM standard and by the CPSC regulations 
cover products such as crib gyms, electrically operated toys, 
chemistry sets, and such toy features as functional points and 
edges. The standard also contains cautionary labeling 
requirements as mandated by CPSC relating to potential choking 
hazards, as we have heard, to children under 3 years of age, 
from toys or games intended for children over 3 years of age 
through age 6, which contain any small part, marble, or 
balloon. We supported this legislation in 1994. Regardless of 
labeling, however, there is no substitute at any age for 
appropriate adult supervision.
    We try to make toys among the safest consumer products in 
the home and we think the statistics establish that. If you 
look at the CPSC statistics, among the 15 most recognized 
hazards in the home toys are not even on the list. They rank 
below most every other product.
    I am going to skip to the end of my statement.
    We are here today to address the question of child safety, 
child product safety, and do the current standards provide 
enough protection? If by enough protection we are talking about 
perfect, zero-risk protection, the answer is no. They do not, 
nor could they ever. The data tells us clearly that standards 
alone are not enough. Tragically, children are still injured or 
killed in traffic accidents despite tough car seat and seat 
belt laws and state-of-the-art car seat technology.
    Backyard pools continue to pose a danger. Children ride 
bikes. We have heard about the bike accidents. Children ride 
bikes and trikes into traffic. They fall over. Things happen. 
Standards and legislation can only do so much. While we may 
never get to zero risk for children, we must continue to try to 
look for zero risk, to look for new ways to address the true 
threats to the safety of our children.
    We believe that education holds the key, and my association 
has already recognized the importance of education and product 
safety. We have to focus on the true hazards and use our 
resources accordingly to get the message out. There is no 
substitute, ever, for adult supervision; and it should be the 
shared role of industry, consumer associations, and the CPSC to 
educate consumers as to the risks out there and appropriate 
behavior to protect our children. In doing so, we will have 
provided parents with the necessary tools to protect the safety 
of our most cherished resource, our kids.
    [The prepared statement of Gary S. Klein follows:]
     Prepared Statement of Gary S. Klein on Behalf of Toy Industry 
                        Association, Inc. (TIA)
    Mr. Chairman and members of the Committee, I'm Gary Klein, Senior 
Vice President, Government, Legal and Regulatory Affairs, for the Toy 
Industry Association, Inc. (TIA). Thank you for providing TIA an 
opportunity to testify in this hearing on Child Product Safety: Do 
Current Standards Provide Enough Protection?

                                  TIA
    The Toy Industry Association, Inc. is a New York City-based not-
for-profit trade association composed of more than 400 members, 
including manufacturers whose aggregate sales at the retail level 
exceed $24 billion annually (regular members), as well as product 
design firms, toy testing labs, product safety consultants, and others 
(associate members). The U.S. Toy Industry leads the world in the 
innovative, cost-effective design and sale of toy products. We are in 
the business of developing fun, innovative products with which children 
can play and learn. TIA members account for 85% of domestic toy sales 
and, global in character, approximately 50% of all toys sold worldwide.
    TIA emphasizes the importance play has in all children's' lives. 
Not only is it fun and educational, but a necessary part of growing up. 
However, to ensure that all children have a positive play experience, 
TIA's primary concern is that play is safe. Together with the U.S. 
government, TIA and its members have led the world in the development 
of toy safety standards by investing heavily in child development 
research, dynamic safety testing, quality assurance testing, risk 
analysis and basic anthropometric studies of children. Moreover, since 
the 1930's, TIA has established a tradition of working with others to 
ensure the manufacture and distribution of safe toys.
    TIA is proud of its record of significant accomplishments in the 
area of toy safety over many decades through relationships with the 
National Safety Council (NSC), National Bureau of Standards (NBS), 
American National Standards Institute (ANSI), ASTM International 
(formerly American Society for Testing and Materials, ASTM), 
International Organization for Standardization (ISO), and, of course, 
with the U.S. Consumer Product Safety Commission. We have also worked 
in collaboration with consumer organizations and other not-for-profits 
to promote the well-being of children. This includes among others, the 
International Consumer Product Health and Safety Organization (ICPHSO) 
and National SAFE KIDS Campaign, to advocate the need for product 
safety initiatives in both the U.S. and internationally.
    This commitment to toy safety continues today, and in 1999, TIA 
launched the first, year-round, toy industry consumer website to assist 
consumers with questions and concerns about toy safety. Comprehensive 
and accurate information is available any time of day, through a 
specially-designed area on the TIA website: http://www.toytia.org/
Content/NavigationMenu/Parents/Toy_Safety/Toy_Safety.htm

   VOLUNTARY ASTM CONSUMER SAFETY SPECIFICATION ON TOY SAFETY IS THE 
                           ``GOLD'' STANDARD
    Under the auspices of NBS, TIA led in the development of the first 
comprehensive safety standard in 1976, and in 1986, the standard was 
revised and designated under ASTM International. The current standard 
is the ASTM F963-03 Standard Consumer Safety Specification for Toy 
Safety, published in January 2004.All of the federal toy safety 
regulations, which appear in the Code of Federal Regulations Title 16-
Commercial Practices, are referenced in ASTM F963, and additional 
requirements and test methods are included. The standard is reviewed 
and revised every five years, at a minimum, and on an ad hoc basis to 
address newly identified hazards. ASTM is one of the largest voluntary 
standards development organizations in the world. And while, 
technically, ASTM F963 is a ``voluntary'' standard, that really is a 
misnomer. Not only is adherence to the standard required for TIA 
membership; toy manufacturers know that compliance with the ASTM 
standard is essential to consumer safety, required by virtually all toy 
retailers, and enforced by the Consumer Product Safety Commission. 
Further, it serves as a model for other standards worldwide.
    In addition, TIA works regularly with the CPSC to review voluntary 
standards and to monitor and address, as necessary, any potential 
hazards associated with toys already on the market. The standards are 
an example of the various ways TIA works to ensure the safety of its 
consumers.

                          AGE APPROPRIATENESS
    Any product, toy or not, can pose a potential hazard in the hands 
of a child for whom it was not intended. For this reason, almost all 
toy packages include a suggested age range for use. A child's actual 
age, physical size, skill level and maturity, as well as safety, are 
all taken into consideration when developing age labels for different 
types of toys. To help manufacturers reach a greater degree of 
consistency in age grading practices and age labeling toy packages, 
CPSC publishes a guide for age labeling toys.
    Since children develop at different rates and vary in their 
interests and skills, age labeling on packages is intended to give the 
consumer a general guideline on which to base toy selections. Typical 
designations might be ``Recommended for children from eighteen months 
to three years'' or ``Not recommended for children under three years of 
age.'' Additional specific cautionary labeling requirements specified 
by ASTM F963 or by CPSC regulations cover products such as crib gyms, 
electrically operated toys, chemistry sets, swim-aids and such toy 
features as functional points and edges (i.e. paper doll scissors and 
toy sewing kit needles).
    The standard also contains cautionary labeling requirements, as 
mandated by the U.S. Consumer Safety Protection Act relating to 
potential choking hazards to children under three years of age from 
toys or games intended for children ages three through under six years, 
which contain a small part, any small ball, marble or balloon. TIA 
supported this 1994 legislation. Regardless of labeling, however, there 
is simply no substitute, at any age, for appropriate adult supervision.
    The toy industry's active participation in these efforts helps make 
toys among the safest consumer products in the home.

               HOW THE INDUSTRY TESTS ITS TOYS FOR SAFETY
    There are more than 100 separate tests and design specifications 
included in ASTM F963 and the federal regulations to reduce or 
eliminate hazards with the potential to cause injury under conditions 
of normal use or reasonably foreseeable abuse. These tests and design 
specifications include use-and-abuse tests, testing for accessible 
sharp points and edges, and measuring for small parts, wheel-pull 
resistance and projectiles. There are also tests for flammability, 
toxicity, electrical and thermal requirements, and acoustics. Several 
manufacturers, especially larger ones, have their own in-house testing 
laboratories sophisticated enough to ensure that products meet 
standards for safety. Those without safety facilities on site use 
independent testing laboratories. Manufacturers producing toys overseas 
test them before shipping, and then sample production lots again once 
they arrive in the United States. TIA and its members are vitally 
interested in developing reputations as ``safety conscious'' companies.
       toy industry priority is the safety of its young consumers
    TIA and its members recognize that standards, alone, are not enough 
and take additional measures to ensure the safety of their products in 
young consumers' hands. For years, TIA has had in place an extensive, 
multi-faceted Safety Assurance Program. Under this program, TIA informs 
consumers on how to select age appropriate toys and the importance of 
adult supervision through its Fun Play, Safe Play guide (distributed 
free of charge, in both English and Spanish, upon request, and on the 
TIA website); publishes a guide to play for children with special 
needs, and conducts regular educational seminars for industry to keep 
them abreast of standards, testing and potential issues.

                        CHILDHOOD RISKS DEFINED
    To consider the question of whether current standards appropriately 
protect consumers, it is necessary to first identify the risks to which 
children are exposed. In spite of remarkable progress that dramatically 
improved the length and quality of children's lives in the U.S. over 
the past century, today's children still face significant, real risks. 
For example, often-avoidable unintentional injuries take the lives of 
more than 1 out of every 10,000 children in the U.S. annually.
    Estimated Annual Mortality Risk for Children Under Age 10 (Number 
of deaths per million children):<SUP>1</SUP> Motor vehicles, 46; Guns, 
5; Drowning, 20; Poisoning, 2; Suffocation, 17; Bicycles, 2; Fire, 16; 
and Medical care, 2.
---------------------------------------------------------------------------
    \1\ Harvard University School of Public Health, Kids Risk 
Symposium, March 26-27, 2003 (Kimberly Thompson, M.S. SCP, Assoc. 
Professor of Risk Analysis and Decision Science, Children's Hospital 
Boston, Harvard Medical School Co-Founder/Director of Research Center 
on Media and Child Health; Director HSPH Kids Risk Project.
---------------------------------------------------------------------------
    In addition, statistics that show other significant risks to young 
people include:<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Based on 1997 data from: (1) the National Center for Injury 
Prevention & Control, Centers for Disease Control and Prevention and 
population estimates from Statistical Abstract of the United States for 
1997.
---------------------------------------------------------------------------
<bullet> 16% of American children under the age of 18 live in families with 
        incomes below the poverty level
<bullet> 4% live in households experiencing food insecurity with moderate to 
        severe hunger
<bullet> 69% live in two-parent families, down from 77% in 1980
<bullet> Birth rate for females (age 15-17) around 26 per 1000
<bullet> Substance use rates are high
<bullet> 21% of 12th graders smoke daily
<bullet> 30% of 12th graders have at least 5 drinks in a row at least once in 
        the previous 2 weeks
<bullet> 25% of 12th graders report illicit drug usage in past 30 days
<bullet> 14% of young adults age 18-24 have not completed high school
<bullet> 8% of youths age 16-19 are not in school or working
    Clearly, our young people are at risk. But, as you can see, toys do 
not figure prominently in much of the data. The actual rates for toys 
when compared to other incidents relating to children demonstrate that 
such toy related incidents are extremely rare!1 Important work in 
creating tools to benchmark and catalogue risk is being undertaken and 
should be supported by this Committee, CPSC, industry and others 
concerned with the safety of our children.
    Compare these childhood risks with the handful of ``toy-related'' 
deaths per year of children from birth to approximately age 13 
(primarily balloons and ride-on toys like scooters), or to CPSC's own 
annual report that indicates that of fifteen commonly used household 
products, toys had among the lowest number of incidences of injuries 
and deaths. Although there are risks associated with some toys, they 
are clearly very small by comparison, and it is remarkable that media 
attention continues to focus on the small risks associated with toys 
while some very big risks remain underappreciated and unaddressed. In a 
world where perception is reality, where misinformation often drives 
perception, and where some advocacy groups and the media focus on 
uncertain hazards, frightening without providing context, it is no 
wonder that policy makers and parents lack context for understanding 
and managing children's risks. Unfortunately, the net result is that we 
often collectively waste scarce financial resources on hypothetical 
hazards at the expense of allocating them efficiently to make 
children's lives measurably safer. Further, this perpetuates a lack of 
coordination between groups that are all arguably committed to helping 
children; focuses on individual issues and agendas instead of children 
themselves; and competition rather than cooperation for the resources 
to truly protect children. This is true at all levels, and anecdotal 
evidence includes a scenario in which, despite years of safe use with 
no real, measurable effects on children, a commonly used chemical in 
plastic toys became the focus of major new stories, needlessly 
frightening parents and politicians worldwide. The wealth of 
independent, scientific research conducted both here and abroad 
determined that vinyl toys were safe.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ The American Council on Science and Health (ACSH), a panel 
headed by former Surgeon General Dr. C. Everett Koop stated that, 
``Consumers can be confident that vinyl toys . . . are safe.'' This 
same conclusion was reached this year by the Consumer Product Safety 
Commission after considering a report of the Chronic Hazard Advisory 
Panel (CHAP), a body of experts nominated by the American National 
Academy of Sciences.
---------------------------------------------------------------------------
    CPSC's extensive NEISS injury data (National Electronic Injury 
Surveillance System) do not usually give the details of the 
circumstances in which the injury took place. Therefore, when examining 
the data it's not always possible to determine whether the particular 
toy-associated injury was the result of the accident (e.g., a child 
tripping over toys left on the stairs), unintended misuse of the toy, 
or a fault in the toy's design, material content, construction or 
performance. Studies of NEISS data by the CPSC have shown that most 
toy-related injuries appeared to be minor, with hospitalization 
occurring less than half as frequently as the overall average for 
injuries. Again, as illustrated by the CPSC data, the industry's 
commitment to designing and producing safe toys and emphasizing the 
importance of adult supervision and appropriate selection of playthings 
has made toys one of the safest products in the home.
 child product safety: do current standards provide enough protection?
    We are gathered here today to address the question of ``Child 
Product Safety: Do Current Standards Provide Enough Protection?'' If by 
``enough protection'' one means ``perfect, zero risk protection,'' I 
would suggest that when viewed from that perspective, they do not, nor 
could they. The data tells us that clearly standards, alone, are not 
enough. Tragically, children are still injured and killed in traffic 
accidents, despite tough car seat and seatbelt laws and state-of-the-
art car seat technology. Children drown in backyard pools and riding 
their trikes into traffic. Standards--and legislation--can only do so 
much. And while we may never get to zero risk for children--we must 
continue to try; to look for new ways to address the true threats to 
the safety of our children. I believe that education holds the key and 
TIA has long recognized the importance of education in product safety. 
We must focus on the true hazards and use our resources accordingly to 
get the message out. There is no substitute, ever, for adult 
supervision and it is the shared role of industry, consumer 
organizations and CPSC to educate consumers as to the real risks out 
there and appropriate behavior to protect children. In doing so, we 
will have provided parents with the necessary tools to effect change 
and ensure the safety of our most cherished resource--our nation's 
children.

    Mr. Stearns. Ms. Weintraub.

                  STATEMENT OF RACHEL WEINTRAUB

    Ms. Weintraub. Thank you, Mr. Chairman and Ranking Member 
Schakowsky. I am Rachel Weintraub, Assistant General Counsel 
with Consumer Federation of America. CFA is a nonprofit 
association of approximately 300 pro-consumer groups with a 
combined membership of over 50 million people that was founded 
in 1968 to advance consumer interest through consumer advocacy 
and education. CFA appreciates the opportunity to testify here 
today on the issue of child product safety, specifically 
whether current standards provide enough protection.
    The overriding issue here today is that the deaths and 
injuries that some of us have suffered here today are not 
merely accidents. They are not things that just happen, they 
are preventable, and many of us here today have proposed 
realistic solutions. Unfortunately, there seems to be a lack of 
will to implement these realistic solutions.
    The Consumer Product Safety Commission is a small agency 
with a monstrous task. This challenge is heightened by the fact 
that over the last two decades CPSC has suffered deep cuts to 
its budget and its staff. Because of these constraints, CPSC 
cannot maintain its current level of safety programs, nor can 
it invest in its infrastructure to improve its work in the 
future. It is for this reason that CFA believes that one of the 
most important things that this subcommittee can do is ensure 
that sufficient funding levels are approved.
    CPSC's funding level directly affects its ability to 
regulate effectively. For example, in every recall matter it 
considers, the Commission must be prepared with research 
evidence to convince the company of the need for action. This 
is very costly. Not having sufficient resources puts CPSC in a 
terrible position as an enforcement agency because it cannot be 
sure it will have the money needed to follow through.
    CFA also suggests that Congress eliminate the cap of $1.56 
million on the amount of civil penalties that CPSC can assess. 
Chairman Stratton just stated he does not think there needs to 
be an increase in the cap and just the cap itself is enough of 
a deterrent. We very much disagree.
    Eliminating the cap will encourage manufacturers to recall 
products faster, will act as a deterrent to noncompliance with 
CPSC's regulations, and will strengthen CPSC's bargaining power 
when negotiating with companies.
    The Senate approved an increase in this cap to $20 million 
about a year ago. Unfortunately, the House has failed to act, 
thus continuing the status quo which fails to create a 
meaningful deterrent for violation of product safety laws.
    CFA also encourages Congress to eliminate section 6(b) of 
the Consumer Product Safety Act. As Marla said, this provision, 
which no other health and safety regulatory agency must adhere 
to, requires that CPSC must check with the relevant company 
before it can give out information to the public.
    This has the obvious affect of delaying or in many cases 
denying access to critical safety information.
    There are currently a number of issues before the Agency 
which illustrate the dire need for not only mandatory safety 
standards, but which also compel congressional involvement. The 
first issue is recall effectiveness, which has been touched 
upon briefly so far this morning. Manufacturers of certain 
products should be required to accompany their products with 
product registration cards, because our current system of 
recall notification is failing. By product registration card, I 
mean a card that accompanies certain products which clearly 
indicates that it is for safety purpose and would require a 
minimum amount of information that the consumer would then send 
back to the company in case of a product safety recall.
    Most consumers never, ever hear about a recall, and many, 
many children have died from products that have been recalled. 
Due to this problem, CFA filed a petition with CPSC in June of 
2000 requesting that CPSC initiate rulemaking to require all 
child product manufacturers to provide a product registration 
card with every product. By a vote of 2 to 1, CPSC denied our 
petition and has failed to take any steps to directly notify 
consumers about a product recall. Congress should act quickly 
to institute product registration cards, and there is 
legislation that would propose such cards, and that is H.R. 
1197 and S. 584.
    Unfortunately, the almost 20-year saga of baby bath seats 
points out the necessity for mandatory law banning these deadly 
products. As of September 15, 2004, just a few weeks ago, 
approximately 119 children have drowned to death, and at least 
163 were injured while using the product. Caregivers who use 
baby bath seats are more likely to take riskier behaviors 
because they believe the device provides an added measure of 
safety. Furthermore, mechanical problems with the bath seats 
make it more likely that a child will drown if unattended.
    CFA again petitioned CPSC to ban baby bath seats in July of 
2000. CPSC ruled in favor of an advanced notice of proposed 
rulemaking in 2001, held a meeting in July of 2003, and on 
October 16th, as Chairman Stratton said, unanimously voted to 
issue a notice of proposed rulemaking. At that time there were 
comments that the public could make which were due on March 15, 
2004. It has been 7 months; unbelievably, nothing more has 
happened at CPSC. In 2003 alone, 14 children have died while 
being bathed in bath seats.
    And a few clarifications. The voluntary standard, which has 
been mentioned, has not yet been implemented. The voluntary 
standard is not equal to the mandatory standard. And there has 
been no recall of the baby bath seats that are on the market, 
millions of them. The Commission agrees that there needs to be 
a complete change in how these products are designed, and yet 
all of these products are still on the market creating exposure 
to millions of children every single day.
    Another issue that CFA has long been concerned about is 
all-terrain vehicles. All-terrain vehicles have been so-called 
regulated by a voluntary approach to safety which relies upon 
warning labels and education, and this system is failing 
American consumers miserably. Serious injuries requiring 
emergency room treatment increased from 110,100 in 2001 to 
113,900 in 2002. The estimated number of ATV-related fatalities 
increased 11 percent in the same period. Children under 16 
received more serious injuries than any other age group. In 
addition, between 1985 and 2002, children under 16 accounted 
for 37 percent of all injuries and 33 percent of all deaths; 
yet CPSC has not taken action to curb this rise. Through a 
petition we filed with CPSC in August of 2002, we have urged 
CPSC to ban the sale of adult-type ATVs for use for children. 
It has been over 2 years, and nothing has happened.
    In conclusion, this subcommittee must make sure that the 
Federal Government lives up to the commitment it made to 
protect consumers from product-related deaths and injuries when 
it created the Consumer Product Safety Commission. CPSC urges 
more funds to be appropriated to the Agency. We suggest that a 
number of changes be made to CPSC's authorizing statute, and we 
urge Congress to work with CPSC to institute a number of 
mandatory safety standards. Thank you.
    [The prepared statement of Rachel Weintraub follows:]
  Prepared Statement of Rachel Weintraub, Assistant General Counsel, 
                     Consumer Federation of America
    Chairman Stearns, Ranking Member Schakowsky and members of the 
Subcommittee, I am Rachel Weintraub, Assistant General Counsel for 
Consumer Federation of America (CFA). CFA is a non-profit association 
of approximately 300 pro-consumer groups, with a combined membership of 
50 million people that was founded in 1968 to advance the consumer 
interest through advocacy and education.
    CFA appreciates the opportunity to testify here today on the issue 
of Child Product Safety, specifically whether current standards provide 
enough protection. Our short answer is, ``no,'' that the current safety 
standards which tend to be voluntary are inadequate and that a number 
of mandatory safety standards are needed to truly protect children from 
unsafe products. In addition, there are other changes to CPSC's 
statutes and funding level that must be made to adequately protect 
consumers from unsafe products.
    First, a bit of background is necessary. The Consumer Product 
Safety Commission (CPSC), the federal agency with jurisdiction over 
consumer products plays an extremely critical role in protecting 
American consumers from product hazards found in the home, in schools 
and during recreation. We know from past experience, from survey data, 
and from consumers, who contact us on a daily basis, that safety is an 
issue that consumers care deeply about and that CPSC is an agency that 
consumers support and depend upon to protect them and their families.
    Yet, with jurisdiction of over many different products, this small 
agency has a monstrous task. This challenge is heightened by the fact 
that, over the past two decades, CPSC has suffered the deepest cuts to 
its budget and staff of any health and safety agency. To put these 
staffing levels and budget appropriations in perspective, it is 
necessary to consider the history and authority of this consumer 
agency. Established by Congress in 1972, CPSC is charged with 
protecting the public from hazards associated with over 15,000 
different consumer products. Its statutes give the Commission the 
authority to set safety standards, require labeling, order recalls, ban 
products, collect death and injury data, and inform the public about 
consumer product safety.
    In 1974, when CPSC was created, the agency was appropriated $34.7 
million and 786 FTEs. Now 28 years later, the agency's budget has not 
kept up with inflation, has not kept up with its deteriorating 
infrastructure, has not kept up with increasing data collection needs, 
has not kept up with the fast paced changes occurring in consumer 
product development, and has not kept pace with the vast increase in 
the number of consumer products on the market. CPSC's staff has 
suffered severe and repeated cuts during the last two decades, falling 
from a high of 978 employees in 1980 to just 471 for the past fiscal 
year.
    While every year an estimated 23,900 American consumers die, and an 
additional 32.7 million suffer injuries related to consumer products 
under the jurisdiction of the CPSC, this agency, with its reduced staff 
and inadequate funds, is limited in what it can do to protect 
consumers. Because of these constraints, CPSC cannot maintain its 
current level of safety programs, nor can it invest in its 
infrastructure to improve its work in the future.
    Because of this historically bleak resource picture, CFA is 
extremely concerned about the agency's ability to operate effectively 
to reduce consumer deaths and injuries from unsafe products. It is for 
this reason that CFA believes that one of the most important thing that 
can be done to protect consumers, including children, from unsafe 
products is to assure that CPSC has a sufficient funding. CPSC's 
current budget, staff, and equipment are stretched to the point of 
breaking. CPSC salaries and rent currently consume 85% of the agency's 
appropriation. An additional 11% of the agency's budget pays for other 
functions (such as supplies, communications and utility charges, 
operation and maintenance of facilities and equipment) that merely 
allow CPSC to keep its doors open for business each day.
    Much of CPSC's equipment, particularly at the laboratory is old and 
outdated. CPSC's testing laboratory serves a crucial role in CPSC's 
compliance investigations and safety standards activities. In spite of 
the laboratory's critical importance, no major improvements have been 
made in the past 25 years. Rather, CPSC and GSA have made only slight 
modifications to its infrastructure, which was originally designed for 
military not laboratory use. Currently, CPSC staff working at the lab 
are working under merely adequate conditions. If the laboratory were to 
be modernized, CPSC would gain significantly through increased 
productivity and efficiency.
    CPSC's funding directly affects its ability to regulate 
effectively. Most of the recalls brought about by the agency are the 
result of voluntary agreements reached between CPSC and manufacturers 
and/or distributors. However, in every recall matter it considers, the 
Commission must be prepared with research evidence to convince the 
company of the need for action. In cases where the agency must file a 
complaint and litigate the matter, the agency may require even more 
extensive testing and research data for use as evidence at trial. This 
testing and research, whether leading to a recall or trial, may need to 
be contracted out and is very costly. This contingency is one with 
enormous ramifications. In effect, not having sufficient resources puts 
CPSC in a terrible position as an enforcement agency. It can't put its 
money where its mouth is--so to speak--because it can't be sure it will 
have the money needed to follow through.
    This concern is further exacerbated as new products and new 
technologies come on to the market. Sophisticated, high tech products, 
such as Segway devices, which CPSC engineers may have never seen, much 
less have expertise with, pose particularly resource intensive 
challenges. For CPSC to live up to its safety mandate, it must be able 
to keep pace with the ever-changing development of technology.
    In addition to increasing CPSC's budget, CPSC could do more to 
protect children and could be an even more effective agency if a number 
of changes were made to the statutes over which CPSC has jurisdiction.
    First, CFA suggests that Congress eliminate the cap on the amount 
of civil penalties that CPSC can assess, as spelled out in section 20 
(a) of the Consumer Product Safety Act (CPSA), against an entity in 
knowing violation of CPSC's statutes. The current civil penalty is 
capped at $7,000 for each violation up to $1.65 million. A ``knowing 
violation'' occurs when the manufacturer, distributor or retailer has 
actual knowledge or is presumed to have knowledge deemed to be 
possessed by a reasonable person who acts in the circumstances, 
including knowledge obtainable upon the exercise of due care to 
ascertain the truth of representations. Knowing violations often 
involve a company's awareness of serious injury or death associated 
with their product. Eliminating the cap will encourage manufactures to 
recall products faster and comply with CPSC's statutes in a more 
aggressive way. Importantly, the elimination of the cap will act as a 
deterrent to non-compliance with CPSC's regulations.
    Eliminating the cap will also strengthen CPSC's bargaining power 
when negotiating with many companies to take a particular action. 
Unfortunately, CPSC has companies under its jurisdiction that have made 
products that have caused many deaths and injuries. For example, CPSC 
fined Cosco, a Canadian company, which is the largest children's 
product manufacturer and distributor in the United States, $725,000 in 
September 1996 for failing to report 96 known toddler bed and guardrail 
entrapments and one death associated with its toddler beds. In 2001 
CPSC again fined Cosco and Safety 1st a record fine of $1.75 million 
after failing to report two deaths and 303 injuries to CPSC. However, 
these companies never admitted wrongdoing and obviously the penalty did 
not deter non-compliance with the reporting requirements.
    Unfortunately, while the Senate approved CPSC's reauthorization 
including increasing the cap on civil penalties from $1.65 million to 
$20 million about a year ago, the House of Representatives has failed 
to act, thus continuing the status quo which fails to create a 
meaningful deterrent for violation of product safety laws.
    Second, CFA urges Congress to eliminate section 6(b) of the 
Consumer Product Safety Act. This section of the Act prohibits CPSC, at 
the insistence of industry, to withhold safety information from the 
public. This provision, which no other health and safety regulatory 
agency must adhere to, requires that CPSC, before it can give out 
certain information to the public, must check with the relevant company 
before disclosing information. If the industry denies access to the 
information, CPSC must evaluate their response and may just drop the 
issue and deny access of the information to consumers. This has the 
effect of delaying or denying access of important information to 
consumers.
    There are a number of issues currently before the agency which 
illustrate the dire need for mandatory safety standards. In each of the 
following instances there are voluntary safety standards that are 
failing to adequately protect children from unsafe products.

                          RECALL EFFECTIVENESS
    Our current system of recall notification is failing. By relying 
upon the media and manufacturers to broadly communicate notification of 
recalls to the public, CPSC and the companies involved are missing an 
opportunity to communicate with the most critical population--those who 
purchased the potentially dangerous product. Due to this failure, CFA 
filed a petition with CPSC in June 2001 requesting that CPSC initiate 
rulemaking to require all manufacturers, (or distributors, retailers or 
importers) of products intended for children to provide along with 
every product, a Consumer Registration Card that allows the purchaser 
to register information through the mail or electronically, require 
recall remedies to be indefinite and require manufacturer 
identification and contact information on each product. CPSC agreed to 
consider only the issue of product registration cards, a requirement 
that the National Highway Transportation Safety Administration (NHTSA) 
currently has for child car seats. Unfortunately, on March 7, 2003 by a 
vote of 2 to 1, CPSC denied our petition. We were very disappointed 
with this decision and continue to believe that product registration 
cards are an essential component of any effort to improve recall 
effectiveness. We continue to be dissatisfied with CPSC's inaction on 
this issue.
    Requiring companies that manufacture, distribute, import or sell 
products intended for children to take additional measures to assure 
the effectiveness of recalls is necessary for the following reasons:

First, return rates for CPSC-recalled products are extremely low. In 
        Fiscal Year 1996, CPSC recalls experienced an 18% return rate. 
        In FY 1997, the most recent year for which data is available, 
        the return rate fell slightly to 16%.
Second, many CPSC recalls involve products for children. In fiscal year 
        2002, CPSC instituted recall actions involving 84 toy and 
        children's products, involving more than 11 million product 
        units.
Third, children are a vulnerable population who deserve additional 
        protections.
Fourth, the risks of death or serious injury associated with children's 
        product recalls are substantial. These recalls often occur 
        because of choking, strangulation, suffocation, burns or 
        serious fall hazards. All of these too often result in the 
        death of a child or serious injury. Children have no capacity 
        to prevent any of these hazards.
    The effective recall of hazardous products is an important purpose 
of the Consumer Product Safety Commission and should be the priority of 
any company that puts a consumer product into the market place. While 
CPSC denied the petition based primarily upon industry's arguments that 
these cards would be too expensive and may not work, we continue to 
believe that the costs involved are reasonable considering the benefit 
of the lives that may be saved. In addition, efforts by NHTSA to 
require registration cards for child car seats have been successful. 
Because child restraints are used in automobiles, NHTSA has 
jurisdiction over this product and has required that manufacturers 
provide cards to consumers. In a study released January 6, 2003, NHTSA 
evaluated its child safety seat registration program. The study found 
that child safety seat registration was successful in notifying 
purchasers of recalls. Specifically the NHTSA study found:

1) Increased registration rates increased recall compliance rates: the 
        repair rate on recalled seats is now 21.5% vs. 13.8% in 1993--a 
        statistically significant 56% increase.
2) The indirect cost to consumers of the mandatory standard is 43 cents 
        for each car seat sold.
3) Return rates for registration cards are now at 27% vs. 3% before the 
        rule was implemented.
    NHTSA's experience with registration cards over the last decade 
provides an important model for CPSC to emulate. NHTSA's recent study 
evaluating their product registration card proves that the cards are 
not only effective in increasing consumer compliance with recalls but 
also achieve a successful result at a low cost to consumers. Currently, 
all that is clear is that CPSC has not done enough to improve the way 
in which consumers are notified of recalls.

                            BABY BATH SEATS
    Unfortunately, the almost 20 year saga of baby bath seats points 
out the necessity for a mandatory law banning these deadly products. As 
of October 2003, Since 1981, when baby bath seats came on to the 
market, approximately 106 children have drowned to death and 163 were 
injured while using the product. One study of caregivers who use bath 
seats found that: they are likely to fill the bathtub with more water, 
increasing the chance of drowning, and they are more likely to 
willfully leave a child in the bathtub alone when a bath seat is in use 
believing that the device provides an added measure of safety. 
Furthermore, there are mechanical problems with baby bath seats that 
make it more likely that a child will drown if a caregiver leaves the 
child unattended. However, there are no mandatory safety standards for 
these products.
    CFA petitioned CPSC to ban baby bath seats in July, 2000. CPSC 
ruled in favor of an Advanced Notice of Proposed Rulemaking in 2001 and 
held a meeting in July of 20003 on CPSC staff's recommendations for a 
notice of proposed rulemaking. On October 16, 2003, the Commission 
voted to issue a notice of proposed rulemaking (NPR) proposing 
mandatory standards for bath seats. On December 29, 2003, the 
Commission published a notice of the NPR and solicited comments from 
the public that were to be received by March 15, 2004. Unbelievably, 
nothing more has happened at CPSC regarding baby bath seats. It has 
been almost 7 moths. CPSC should not wait for more deaths and injuries 
to occur before they take action on this hazardous product. A ban of 
baby bath seats in necessary, as is a recall of all bath seats 
currently on the market. A mandatory standard is needed to 
fundamentally alter the way these products are designed.

                          ALL-TERRAIN VEHICLES
    CFA has long been concerned about all-terrain vehicle (ATV) safety. 
ATVs have been ``regulated'' by voluntary standards since the 1980s. 
Unfortunately our concern with this voluntary approach has been 
increasing as injuries and death on ATVs--especially injuries and 
deaths to kids--have been on the rise.
    CPSC data consistently shows that ATV-related injuries and deaths 
are increasing. According to the most recent data, released by CPSC 
almost a year ago: serious injuries requiring emergency room treatment 
increased from 110,100 in 2001 to 113,900 in 2002; the estimated number 
of ATV-related fatalities increased 11 percent from 569 in 2000 to 634 
in 2001; children under 16 suffered 37,100 injuries in 2002 up from 
34,300 in 2001. This age group received more serious injuries than any 
other; between 1985 and 2002, children under 16 accounted for 37 
percent of all injuries and 33 percent of all deaths. The CPSC 
continues to make clear that the increase in injuries is not explained 
by rising ATV sales.
    The history of ATVs in the United States proves that the current 
approach--the industry's self-regulating approach--to safety is not 
working. Self-regulation by the ATV industry has led to larger and 
faster ATVs and more children being killed and injured. CPSC's own data 
illustrates that CPSC and the states must act to end this hidden 
epidemic by moving aggressively to protect young children from the 
dangers posed by adult-size ATVs. In particular we have urged CPSC 
through a petition we filed in August 2002, to ban the sale of adult 
size ATVs for the use of children under 16. CPSC must act soon to 
ensure that these trends are reversed. Unfortunately, after three field 
hearings held about a year ago, CPSC has not done anything to reverse 
the trend of increasing deaths and injuries caused by ATVs. We urge 
Congress to monitor this issue closely and to hold oversight hearings 
on ATV safety to determine the role Congress should play in this public 
health crisis.
    In conclusion, this Subcommittee must step in and exercise its duty 
to make sure that the federal government lives up to the commitment it 
made to protect consumers from product-related deaths and injuries when 
it created the Consumer Product Safety Commission. CFA urges more funds 
to be appropriated to the agency so that more people will have the 
benefit of CPSC's efforts to protect consumers from unsafe products, we 
suggest that a number of changes be made to CPSC's authorizing statute, 
and we urge Congress to work with CPSC to institute a number of 
mandatory safety standards including those related to recall 
effectiveness, baby bath seats and ATVs. Mandatory safety standards are 
necessary where the current voluntary approach to safety has failed to 
curb deaths and injuries.
    Thank you.

    Mr. Stearns. I thank you.
    I will start with the opening, my questions. I think I will 
start out by saying, Ms. Ginzel, that we appreciate your 
presentation, and I think I share it with all my colleagues how 
sorry we are for the loss of your son Danny. And I think it is 
more poignant than ever when people who testify like yourselves 
speak in such a heartfelt way and speak from such personal 
tragedy that it makes the hearing much more significant and 
much more current on our things we have to do in a day to think 
about this and think what can be done.
    And I guess I would give you the floor to say, you say the 
system is broken, we have the power to fix it, and I can tell 
you how to fix it. Now, we have heard from others here. Ms. 
Weintraub has indicated there are other serious problems 
besides this Playskool Travel-Lite portable crib, and you 
indicated there are 9,000 still unaccounted for, I think you 
said. And we can hear these horror stories throughout.
    And obviously this Commission probably has not been 
reauthorized, and probably there are things we should update 
with, and it is not just a case of money, but obviously this 
6(b) regulatory should be looked at. I mean, I don't think 
after all these years, with the change in scope and all these 
imports and everything, it is possible that there is a whole 
new presentation that needs to be done. So let me give you the 
floor and ask you what you think we should do as a subcommittee 
membership.
    Ms. Ginzel. Thank you, Chairman Stearns. I am very grateful 
for your kind words. It is not easy for me to sit here and to 
list the ways that--all the reasons why my son should still be 
alive today. When I prepared to be in front of you today, I had 
the task of trying to tell my story, but then also maybe trying 
to say what could have changed, and what I am focusing on is 
just my own son's case. The other panelists have done, I think, 
a great job talking about the fact that this is way beyond the 
Playskool Travel-Lite crib. Many other products are involved. 
But I wanted to tell you how my son's life could have been 
saved specifically, three categories or three ways. One is 
called reverse marketing. The other is child care notification. 
The other is product registration.
    Now, Marla talked about her career in marketing prior to 
being an advocate. These companies are able--for example, take 
the crib that killed my son. When this crib was recalled, 
Hasbro the company that licensed its trusted Playskool name to 
Kolcraft, did nothing. Kolcraft negotiated with the CPSC, and 
the recall basically amounted to a press release. They had some 
posters, they sent out some videos with these press releases, 
but essentially a press release. Now, does this make any sense 
to you? I mean, when my son hurt--my son, who, when his brother 
was killed, was at the time was 5 years old. And he said, well, 
what if you don't turn on the TV that night? He is 5 years old.
    Hasbro spends millions of dollars a year on marketing. They 
reach into our home every day when they want to sell us one of 
their new products. What is so hard about reaching into our 
home when they need to retrieve a deadly product? This is a 
time bomb. The Playskool Travel-Lite was a time bomb disguised 
as a crib.
    I have people testifying that, well, baseballs are 
dangerous, and traffic accidents and bicycles and scooters. 
Well, those are all risky behaviors. We know that when we 
engage in a sport, a child might be hit by a baseball. We know 
when we get into a car that we are engaging in a risky 
behavior. We assess that risk. You put your child in a crib, 
you don't think it is a time bomb. You don't think that the 
crib, the very product that is supposed to keep your child 
safe, is going to strangle him. So I think there is a 
difference in these types of products.
    So my son would be alive today if companies would take 
responsibility for their products and try to retrieve them from 
our homes as--maybe not as much, but a little bit more than 
they----
    Mr. Stearns. And that is the reverse marketing.
    Ms. Ginzel. That is what I would call--well, what has been 
referred to as reverse marketing.
    Mr. Stearns. Okay.
    Ms. Ginzel. Child care notification. Okay. So companies 
aren't required to use reverse marketing to reach us, but what 
about child care facilities? The fact is that half the children 
who died in the Playskool Travel-Lite crib died in child care 
settings. Hasbro knew this. Why weren't they notified? After 
the sixth child was killed, my husband and I wrote a letter to 
Alan Hassenfeld, the CEO of Hasbro, and we asked him to notify 
registered day cares. You know what? He did. Now, does this 
make any sense to you? Why do the parents of a dead child have 
to ask a manufacturer to notify registered day cares? How 
expensive is that? How obvious is that? Why isn't that part of 
a recall process? Why isn't that a default part of a recall 
process? My son would be alive today if they had notified that 
day care. So that is child care notification.
    Product registration. I want to say one thing. I want 
everyone to understand that my son had quality child care. This 
is not about dangerous day care, this is about dangerous 
children's products. The particular crib that killed my son was 
given to the home by the parent of a child who was still in the 
day care. She was in touch with the original owner of that 
crib. After my son died, people said, oh, it is just too bad 
that that person didn't send in the warranty card. I mean, why 
didn't she do that? That would at least allow the company to 
notify her.
    There was no warranty card with this product. It didn't 
have one. If it did, my son would be alive today.
    Mr. Stearns. A lot of people don't fill out the product 
registration cards.
    Ms. Ginzel. But she didn't even have the opportunity to 
fill out the product registration card. A lot of people do a 
lot of things, but we need to have opportunity and choice, and 
we don't have that as parents. We are walking through a 
minefield, and we don't even know it.
    Mr. Stearns. Well, I think you have made some good points. 
I think what we will do is do a second round here. It is just 
you and I. So, with that, my time has expired.
    Ms. Schakowsky.
    Ms. Schakowsky. Ms. Lipin, I wanted to--the suggestion or 
actually the mandate, if there was one, from the CPSC or the 
reaction was that there were no permanent injuries, and there 
was this low risk of strangulation. But you have taken it upon 
yourself--let me first just congratulate you. It seems to me 
that your efforts were probably more successful than CPSC 
almost undoubtedly in getting this product off the shelf and 
getting these retailers to remove it from their stores. But 
could you give us some examples of some of the cases that you 
heard about?
    Ms. Lipin. Certainly. Thank you.
    Missy Mason, son Austin, age 4, they live in Ohio, got hit 
with the cord of this. The end, okay, snapped him in the eye, 
and Austin had to have a lens implant. He had two to three 
surgeries. He uses drops every day for the rest of his life for 
glaucoma. He goes to doctors all the time. He has to wear 
glasses for the rest of his life.
    Ms. Schakowsky. So the CPSC is aware of this?
    Ms. Lipin. Yes, they are. Missy has written to them. Her 
story is on my Web site. They are well aware of my Web site. 
Missy has contacted them. No response.
    Ms. Schakowsky. So, actually, worse than no response. So 
there is a permanent injury.
    Ms. Lipin. Permanent.
    That is not the only permanent injury. There is another 
child, Gavin Fann, who lives in Indiana also, the same thing, 
he got hit in the eye. He got hit with the ball, though. Okay? 
He also had surgery, lens implants. These are little kids, they 
are 4-years-old, who had perfect vision, nothing wrong with 
them until this toy entered their home. Okay? A toy which, I 
would like to add, had no warnings labels. I have one here 
right now, and it says, ``Made in China.'' It is in a plastic 
bag. This is one of those 50-cent toys probably that this 
gentleman who was sitting here before mentioned. Okay? So these 
parents had no opportunity to know that this toy could be 
dangerous.
    There is another child who was age 13, okay; who was at 
junior high 1 day, and Mom got a call, he got hit in the eye 
with a yo-yo ball. He spent 2 nights and 3 days in the 
hospital. Okay? He, too, has to go for follow-up procedures all 
the time to make sure his vision--he was actually left like 
temporarily blind for like 2 days, and the vision did return. 
But still, Jacob Wilcox in Ohio also was injured by this toy.
    But more serious--I mean, these permanent injuries are very 
serious, but the things about children being found unconscious. 
There was just recently, 10 weeks ago, a child from Kansas who 
was camping with his parents in a campground in Minnesota, and 
the child was found--okay, Nicholas Clancy, he is 4--face down 
by Mom and Dad, turn him over, unconscious, gushing blood; not 
just bleeding a little bloody nose, gushing blood from his 
mouth and his nose, okay, because his carotid artery was cutoff 
because this cord was wrapped so tightly around his neck. 
First, it took Dad a few minutes to get it off of his neck. 
They got him to an ER where the doctors again said, you know, 
luckily he was okay. Now, he was taken to an emergency room, 
one of which I don't believe that is part of this NEISS system. 
Okay? So there are emergency visits that have not been recorded 
through CPSC's system.
    There is a little boy in Ohio also who suffered a skull 
fracture, okay, when he fell and hit the concrete. Parents have 
told me that they have found their children lifeless, laying 
there not breathing, Okay? There is--a part of my testimony is 
from a woman Evie Dale, whose daughter Mary recently about I 
think it was also 10 weeks ago was found with the toy around 
her neck. There was pictures attached to this letter she sent 
me, and I included her letter as part of my testimony. Her 
question is, why did her child get hurt 15 months later after I 
have been doing this? And I started it--injuries came in almost 
a year prior to my son Andrew almost being strangled to death. 
So I don't understand the system.
    Ms. Schakowsky. If I could ask Ms. Felcher, you heard some 
testimony from Mr. Klein about the testing process and how 
rigorous it is. I am wondering if you would make any comments 
about what we know to be the law and what we know to be in 
practice about testing.
    Ms. Felcher. Right. Well, I am sure that Mattel has a good 
lab or an interesting lab. I have asked to go see it, but it is 
proprietary. What I witnessed in--I went to many of the ASTM 
meetings where the voluntary standards were hashed out and 
debated, and I was shocked. I mean, you have to understand that 
I was not in this world at all. I mean, I was teaching MBA 
students at the time, and someone suggested that I go watch 
this process to understand it. And it was--three-quarters of 
the committee were industry people. They even have the same--
the meetings take place, I think, this week or next week. The 
trade organization, the Juvenile Products Manufacturers 
Association, have their meetings back to back with ASTM, the 
voluntary standard-setting group, because it is all the same 
people.
    And so what happens is they say, okay--I was there for many 
of the baby bath seat standards, and everyone sits around, and 
the head of the committee when I was there was the person 
representing Safety First, which was the leading manufacturer 
of baby bath seats. So he did have an economic incentive tied 
up with this standard. And they would just hash out what one 
manufacturer wanted as part of the standard and, more likely 
than not, what the manufacturers did not want as part of the 
standard. And this would go on for years and years and years, 
while at the same time CPSC was tallying the deaths due to 
these standards.
    So it just, the standards-setting process right now, No. 1, 
are voluntary. And, No. 2, it is--there is--the conflict of 
interest is there. I mean, there is no way. It is a classic 
situation of the fox guarding the hen house.
    And, you know, and another issue involved there is that 
there are a couple of consumer groups there at these meetings 
fighting for kids and fighting for tougher standards, but these 
consumers get to run their own dollar. I mean, these consumers 
have to quit, stop their jobs, take off a couple days from 
their jobs, pay for a few days in Orlando or wherever these 
meetings are. And so, of course, there are not going to be as 
many consumer advocates looking out for the interests of kids 
there. So--and, you know--and again, I didn't go into this 
process expecting to see that, and it took me a while to figure 
it out. And it is a sham. It is totally a sham, in my mind.
    Mr. Stearns. The gentlelady's time has expired. I think we 
will go one more round, if you have the patience.
    Mr. Klein, this toy they are mentioning here that they have 
shown and that the ranking member has in her palm of her hand, 
are you aware of this toy?
    Mr. Klein. Yeah, I have seen it.
    Mr. Stearns. I mean, that company is probably not a member 
of the Toy Industry Association.
    Mr. Klein. I don't believe they are.
    Mr. Stearns. No. So, I mean, there is no way that you would 
have any type of regulatory on this particular toy. So it is 
pretty much out there, and whoever buys it is caveat emptor. 
Isn't that what you would probably say?
    Mr. Klein. Well, when you say whoever buys it, I mean, I 
hear about these incidents with 4-year-olds. Would I buy it for 
a 4-year-old? No. Chairman Stratton said he took it away from 
his. Again, it makes me sound callous, and I am not.
    Mr. Stearns. You are just saying a certain amount of 
personal responsibility is due here.
    Mr. Klein. Yeah. And when I hear a 13-year-old who got hit 
in the eye, I mean, was he playing with it, or was it thrown at 
him? I mean, if it was thrown at him and it hit him in the eye, 
that gets put down as a toy-related incident. Is that the way 
the toy was intended to be used? Probably not. It is no 
different than getting a baseball thrown at you. If you weren't 
looking for it, it is going to hit you in the head.
    Mr. Stearns. And looking at the package that they have 
shown us, it says, ``Made in China.'' But there is no 
directions, there is no product registration card, there is no 
child care notification. So there is really nothing there, so 
it is sort of just fly----
    Mr. Klein. Well, and there are a lot of products like that. 
You know, there is lots of them that you see in bins when you 
go into stores. Sure. I understand that. But they are not made 
by our members, and they don't necessarily--if they were made 
by our members, they would have to go through all the testing 
that all of our members put their products through, Okay? And 
if they were filled with a hazardous substance, it would be 
banned under the Federal Hazardous Substances Act, which the 
CPSC does enforce.
    Mr. Stearns. Ms. Felcher, you have alluded to the 6(b) 
regulation. And can I characterize your statements, you would 
like to eliminate it?
    Ms. Felcher. Yes, I would very much like to.
    Mr. Stearns. Now, if we eliminated the 6(b), how would you 
get companies to voluntarily come in? Now, Hasbro did not seem 
to do this, but I assume there are some good companies that are 
willing to come in and say to the CPSC, yes, we have this 
problem. And so what would you replace it with?
    And I guess a larger question is, Ms. Weintraub, is there 
any paradigm maybe in Europe or other countries that we could 
use to tailor a new CPSC that would make it more credible to 
the consumers organizations like the Consumer Federation of 
America? So I asked Ms. Felcher.
    Ms. Felcher. I drive a Subaru station wagon because I 
always felt it was a sensible car. And if someone of you 
followed the newspapers a few weeks ago, there was a ranking in 
terms of various safety measures for various cars, and I 
learned that outside of SUVs, my car has a very high propensity 
to tip over. And I went right to the NHTSA Web site, and it 
is--being the regulatory agency for cars.
    Mr. Stearns. NHTSA is under our jurisdiction, too. So we 
have had them here.
    Ms. Felcher. And I checked. And I said, my God, I thought 
that I am driving this car because it is safe, and it is not. 
So automatically I made note to self: Next time I buy a car, I 
wanted to buy the safest car. And I am going to buy a Volvo or 
whatever is safer.
    If I am deciding to go and buy an infant's swing for my new 
niece who will be arriving in a couple weeks, there is no 
comparable Web site or part of the CPSC Web site that I can go 
to get that safety ranking, and that is because of 6(b). So 
NHTSA doesn't have this statute. NHTSA doesn't have their hands 
tied like CPSC, and, therefore, again, we are getting the 
information.
    And I know that I am unusual in that not everyone is going 
to read a newspaper article and go check the safety ratings. 
But, again, there has been a lot of talk about getting 
information out there. I am one of those people. And so that 
information is there. And my guess, I am not as up on what goes 
on at NHTSA----
    Mr. Stearns. But you are saying NHTSA is a paradigm that 
you think would work.
    Ms. Felcher. Right. And car manufacturers still report 
problems to NHTSA.
    Mr. Stearns. Okay. Is there anything that you would like to 
add?
    Ms. Weintraub. The one thing that I would like to add is 
that I think there is a whole carrot stick issue here, and that 
is with the civil penalties. Right now the most that CPSC can 
assess against a company that violates one of those----
    Mr. Stearns. So if they went to 20 million as opposed to 
1.6 million, you think that would make----
    Ms. Weintraub. I think that would be----
    Mr. Stearns. So would 6(b), in your opinion, then, we could 
still continue----
    Ms. Weintraub. No. I think that 6(b) should be eliminated 
as well. But I think the disincentive for a substantial fine 
would also encourage companies to comply with laws in a more 
substantial way than they are doing so now.
    Mr. Stearns. Staff has shown me that the CPSC has taken a 
significant step. They have created a Web site. It is 
www.recalls.gov, and on--that is now under the CPSC, but the 
Food and Drug Administration, the National Highway Traffic 
Safety Administration, the Environmental Protection Agency, the 
U.S. Coast Guard, and the U.S. Department of Agriculture. So 
all of these folks have joined together sort of to create this 
one-stop shop for consumers to go to to facilitate product 
recalls. So I think that is a good step. And on this Web site 
consumers can register to receive instant e-mail alerts from 
the CPSC on all product safety recalls, including children's 
products.
    So, you know, I think that is important to realize that 
consumers can go on this Web site, and then they can get alerts 
through their e-mail, and then they will be told of these 
problems. In addition, consumers can use this site to report a 
problem. So in this case, Ms. Ginzel, you could report a 
problem with a consumer product, a motor vehicle, a boat, food, 
environmental product.
    And I am going to send around a Dear Colleague letter to 
all my Members to ask them to tell all their constituents about 
this, and do everything I can to get this new Web site out. So, 
reverse congressional marketing, so to speak, to try to get 
this out so we can get consumers aware of it.
    Anything else? My time has expired. Yes.
    Ms. Weintraub. Chairman Stearns, if I may. This Web site 
could be very useful to some consumers. However, it relies on a 
consumer to take a number of affirmative steps to go to the Web 
site to learn about the particular recall. No. 1, of course, is 
Internet. It relies upon the person to have access to the 
Internet. We know there is a digital divide. Not all people 
have such access. But significantly, it is sort of--it is the 
same old thing.
    Now, I think that the Web site is a good idea. However, it 
is not a solution to our broader recall problem because the 
answer lies in directly notifying consumers for the information 
to get to the consumers who actually purchased the product.
    Mr. Stearns. They have to have a computer.
    Ms. Weintraub. Not necessarily.
    Mr. Stearns. I am just saying, your point is that if a 
person doesn't have a computer, they can't even go to this 
site.
    Ms. Weintraub. Correct. If they don't have a computer, they 
can't. And there are systems such as the product registration 
card which would directly go to the people who actually 
purchased the product.
    And one other point I wanted to make about existing product 
registration cards is that on the cards themselves there are 
now huge disincentives for consumers to fill them out. I don't 
fill them out many times.
    Mr. Stearns. Because of privacy.
    Ms. Weintraub. Exactly. Because of privacy. Because they 
ask questions about your education level, about your income 
level, about how you found out about the product, about your 
buying patterns. That has nothing at all to do with safety.
    Mr. Stearns. You don't have to fill it out. It is 
voluntary. And not everybody tells the truth anyway.
    Ms. Weintraub. Correct. But a lot of people, when they see 
all those questions, they just throw it out even though sending 
it in with just a little bit of personal information could 
potentially save a life if there is a recall.
    Mr. Stearns. Because then the Hasbros of the world would 
send back a notice and say, da, da, da, da, da, beware, and let 
us know and so forth, like this. We have had this case, and so 
if this product is in your home, be very careful.
    Ms. Weintraub. Exactly. And it gets to the people who 
purchase the product, and they are the ones who need to know.
    Mr. Stearns. My time is up.
    Ms. Schakowsky.
    Ms. Schakowsky. First, I would like to see if Ms. Cowles, 
who has not been asked a question, to see if there is anything 
you wanted to add in terms of the dialog that has been going 
on.
    Ms. Cowles. I think that actually my position has been well 
represented. I think that the recalls.gov is a good portal for 
people who are Web-savvy and want to use it. It really is just 
one additional step, though, you have to go to to get--it just 
takes you directly to the CPSC page. So we still refer people, 
if they are worried about children's products, to go directly 
to cpsc.gov rather than through the portal, because it is just 
an additional link that they have to go through.
    And I also just want to talk very briefly about the testing 
issue and the voluntary standards. I sit on those voluntary 
panels for children's products, which, unfortunately, are 
meeting right now. So I am here instead. I hope they are not 
doing anything too drastic. But as Marla said, my two or three 
consumers that usually sit together are often outvoted. For 
instance, the bassinet standard which is out there, the 
voluntary standard has no requirement for a side height on a 
bassinet. You could basically--if this table was sturdy enough, 
I could say that it is a bassinet, and they would have to put 
the sticker on it saying that it met voluntary standards even 
though it has no sides on it because they have no requirement 
for a side height on a bassinet. So it is a very unuseful 
product for protecting children, I believe, because of the role 
of manufacturers. They make products with side heights lower 
than what should be recommended, and so they don't want to put 
it because they would have to remake those products. So I think 
that that system is not working. We need to look at mandatory 
regulations.
    Ms. Schakowsky. Ms. Lipin.
    Ms. Lipin. I just wanted to say one thing about the yo-yo 
ball. One of the problems I have found with this, first of all, 
a recall--I was never asking for a recall; I was asking for 
this product to be banned, because a recall for this particular 
product would never work because we don't know who the 
manufacturers are. We do know that Imperial Toy Company out of 
Los Angeles--because I have spoken to their president of that 
company--had brought this toy, and they imported it. I have 
communicated with them. They claim this was a fad item and so 
forth. You couldn't recall the product because there are 
millions of them, they say, like 11 to 15 million of these toys 
in.
    And when Chairman Stratton was talking about how he has 
gone to China, I have also communicated with toy companies in 
China via e-mail. It has been really interesting. And what they 
told me is they knew of the strangulation hazard of this toy, 
and one of the companies told me that he was no longer able--I 
wanted to see if I could buy it from China, to get them to ship 
it to me. He told me that China would not allow the exportation 
of this toy. Now, if China does not allow the exportation of a 
toy to the U.S. because of a safety concern, why in the U.S. do 
we sell this toy?
    Ms. Schakowsky. Well, and more than that, let me----
    Ms. Lipin. And other countries have banned it.
    Ms. Schakowsky. Let me read to you from a Consumers Union 
report of October 5. It says: When a product intended for sale 
in the United States violates a mandatory safety standard, and 
a manufacturer or exporter wants to ship it abroad, that party 
is required to notify the CPSC. The Commission staff rarely 
says no. More than 900 times between 1994 and 2004, products 
that violated mandatory Federal safety standards were exported, 
according to Commission records.
    Now, sometimes they go back to the countries that 
manufactured it, and they are supposed to be responsible; but 
other times, it just simply gets into the marketplace. So we 
are, in fact, Mr. Chairman, allowing the export of toys that 
are not deemed to be safe and have been recalled in the United 
States.
    I wanted to get to almost a philosophical issue, and that 
is the issue of parent, parental responsibility, and the 
enormous sense of guilt, at least initially, that must go with 
the idea of a child being injured by a product and where 
parental responsibility begins and ends.
    Clearly, in Linda Ginzel's testimony, she did everything 
and did everything right, and there was absolutely no way to 
prevent that, given the regulations as they stood and as they 
continue to stand. And I appreciate the recommendations that 
seems so very simple. I would add pretesting of the products as 
an obvious addition to that. But when we are talking about a 
product that by its nature has inherent dangers attached to it 
when used properly, it seems to me that we do have a 
responsibility.
    Linda Lipin was standing right next to her son, and yet he 
nearly strangled to death, and other parents as well. So these 
are not people who are leaving their kids.
    There is a horrific story about a bassinet in Ms. Felcher's 
book where a number of children died from a cradle--a cradle 
that rocked. A woman had her children taken away from her by 
the Child Protection Agency, blaming her for the child's death 
when it was known that this was a dangerous product that was 
sold.
    And so while clearly parents have a responsibility, and 
baseballs are always going to hit kids in the head, and they 
are going to fall off their bikes, I think it is very important 
for us to take very seriously our role as regulators of 
products that, when we know them to be a hazard when properly 
used, that we do everything we can to make sure they never get 
on the shelf in the first place, and that we do something to 
get them away.
    This notion that the registration cards aren't used anyway, 
well, you know, people don't--we could figure out a system, a 
simple card that said, if you want to be notified of a recall, 
sign this. Manufacturers know how to get people to act in a 
certain way. Why can't we apply those standards of marketing to 
make sure that we create as safe an environment for our 
children?
    And I just am not going to buy this idea, well, you know, 
parents are to blame, or they are not doing enough if we are 
not doing as much as we can. And clearly, from this wonderful 
testimony that we have heard, I conclude unequivocally that we 
are not doing enough to protect our children, that they are in 
essence test dummies for products, and that that is just not 
sufficient.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Stearns. Yes. And I thank the ranking gentlewoman for 
her participation. And I want to thank all the witnesses for 
their work in the area of children's product safety, and 
obviously want to thank them for their testimony this morning.
    Ms. Schakowsky. If I could ask one more thing, Mr. 
Chairman.
    Mr. Stearns. Sure.
    Ms. Schakowsky. For unanimous consent for the record to be 
held open for opening statements and questions, and for the 
Consumer Reports article, Hazard on Aisle 5, which reports on 
unsafe products on the shelves, to be included in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    I also would encourage the CPSC folks that are here, if 
there is anything they would like to add to this hearing as 
footnotes or attachment or appendix, that would be very 
helpful.
    I think the witnesses have posed some very interesting 
questions, and I think it is incumbent upon the Commission to 
respond to some of these, because, as it turned out, we had the 
first panel of the chairman, and he is unable to respond to 
some of these. It would have been helpful perhaps to have him 
respond to some of these. So I would suggest to you folks that 
you might consider an appendix.
    And I am going to thank all of you again for your 
testimony, and I think it has been a very great hearing. And, 
with that, we are adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
  Response from Rachel Weintraub, Assistant General Counsel, Consumer 
      Federation of America to Questions from Hon. Edolphus Towns
    1. In your view, why has the Commission been ineffective in 
protecting consumers? Is it a lack of funding, regulatory power, 
culture, or some combination of the three, and what can Congress do to 
change this?
    Thank you for the opportunity to answer your questions. The reasons 
why the Consumer Product Safety Commission (CPSC) has not been as 
effective as it can be in protecting consumers is complex. As your 
question supposes, it is a combination of a lack of funding, the 
existing regulatory authority, and possibly the current culture flowing 
from the leadership of the agency.
A. CPSC Funding
    To put CPSC's funding levels in perspective, it is important to 
note that, over the past two decades, CPSC has suffered the deepest 
cuts to its budget and staff of any health and safety agency.
    In 1974, when CPSC was created by Congress, the agency was 
appropriated $34.7 million and 786 full time employees (FTEs). Now 28 
years later, the agency's budget has not kept up with inflation, has 
not kept up with repairing its deteriorating infrastructure, has not 
kept up with increasing data collection needs, has not kept up with the 
fast paced changes occurring in consumer product development, and has 
not kept pace with the vast increase in the number of consumer products 
on the market. CPSC's staff has suffered severe and repeated cuts 
during the last two decades, falling from a high of 978 employees in 
1980 to just 471 for this fiscal year.
    CPSC, with its reduced staff and inadequate funds, is limited in 
what it can do to protect consumers. Because of these constraints, CPSC 
cannot maintain its current level of safety programs, nor can it invest 
in its infrastructure to improve its work in the future.
    Due to the funding limitations, much of CPSC's equipment, 
particularly at the laboratory is old and outdated. CPSC's testing 
laboratory serves a crucial role in CPSC's compliance investigations 
and safety standards activities. In spite of the laboratory's critical 
importance, no major improvements have been made in the past 25 years. 
Rather, CPSC and GSA have made only slight modifications to its 
infrastructure. Currently, CPSC staff working at the lab are working 
under merely adequate conditions. If the laboratory were to be 
modernized, CPSC would gain significantly through increased 
productivity and efficiency.
    CPSC's funding directly affects its ability to regulate 
effectively. In every recall matter it considers, the Commission must 
be prepared with research evidence to convince the company of the need 
for action. This research costs money and could be very expensive, 
especially over time.
    In addition, as new products and new technologies come on to the 
market, the numbers of products under CPSC's jurisdiction increases. 
High tech products, such as Segway devices, which CPSC engineers may 
have never seen, much less have expertise with, pose particularly 
resource intensive challenges. For CPSC to live up to its safety 
mandate, it must be able to keep pace with the ever-changing 
development of technology.
    Because of the lack of funding and the increase in the number and 
complexity of the products under CPSC's jurisdiction, CFA is concerned 
about the agency's ability to operate effectively to reduce consumer 
deaths and injuries from unsafe products. It is for this reason that 
CFA believes that one of the most important thing that Congress can do 
to protect consumers, including children, from unsafe products is to 
assure that CPSC has sufficient funding levels each and every year.
B. CPSC's Regulatory Power
    CFA recommends that Congress make a number of changes to CPSC's 
authorizing statutes, to give CPSC the regulatory authority it needs to 
more effectively protect consumers from unsafe products. Our first 
recommendation is for Congress to pass legislation that would eliminate 
the cap on the amount of civil penalties that CPSC can assess, as 
spelled out in section 20 (a) of the Consumer Product Safety Act 
(CPSA), against an entity in knowing violation of CPSC's statutes. The 
current civil penalty is capped at $7,000 for each violation up to 
$1.65 million. Knowing violations often involve a company's awareness 
of serious injury or death associated with their product. Eliminating 
the cap will encourage manufactures to recall products faster and 
comply with CPSC's statutes in a more aggressive way. Importantly, the 
elimination of the cap will act as a deterrent to non-compliance with 
CPSC's regulations. Eliminating the cap will also strengthen CPSC's 
bargaining power when negotiating with many companies to take a 
particular action.
    Second, CFA urges Congress to eliminate section 6(b) of the 
Consumer Product Safety Act. This section of the Act prohibits CPSC, at 
the insistence of industry, to withhold safety information from the 
public. This provision, which no other health and safety regulatory 
agency must adhere to, requires that CPSC, before it can give out 
certain information to the public, must check with the relevant company 
before disclosing information. If the industry denies access to the 
information, CPSC must evaluate their response and may just drop the 
issue and deny access of the information to consumers. This has the 
effect of delaying or denying access of important information to 
consumers.
    In addition, CFA has a number of recommendations that Congress 
could implement that would improve CPSC's ability to protect consumers, 
which we did not have the opportunity to include in our testimony on 
October 6th before the Subcommittee. CPSC does not have jurisdiction 
over fixed site amusement parks. CPSC does have authority over mobile 
parks, but not over parks that remain in place over time. 
Unfortunately, at least fifty-five fatalities have occurred on 
amusement park rides in the last fifteen years and serious injuries 
have soared 96 percent in the last five years. Federal oversight is 
crucial due to the vast variation in state laws and the absence of any 
regulation in some states. Congress should pass legislation, 
specifically H.R. 2207, The National Amusement Park Ride Safety Act, 
which would restore CPSC's authority over fixed-site amusement parks 
and should authorize more money to take on this expanded role.
    CFA urges Congress to require businesses selling toys on the 
Internet to provide on their website the same cautionary labeling that 
is required on toy packaging. Online retailers should be required to 
post the cautionary warnings on their websites so that consumers can be 
aware of the potential safety issues before purchasing the product. 
Current law, drafted before millions of consumers purchased products 
online, does not contemplate internet purchasing. Thus, in order to 
provide online consumers with the same information that consumers in 
brick and mortar stores can access, safety labeling should be required 
to be displayed online, near the product that is being sold.
    Congress can improve CPSC's ability to effectively communicate 
recalls to consumers by passing the Product Safety Notification and 
Recall Effectiveness Act of 2003 (H.R .1197). This legislation would 
solve an enormous problem, currently plaguing CPSC's ability to 
communicate recalls to the public, by requiring manufacturers of 
certain products to accompany those products with a ``Product Safety 
Registration Card'' or online equivalent. Once consumers fill out the 
card and send it to the manufacturers, manufacturers will have the 
ability to communicate recalls to the people who have to hear it most--
the consumers who bought or received the product.
C. CPSC's Culture
    The culture of CPSC is difficult to ascertain and the most 
difficult element to improve. CFA would hope that the culture of CPSC 
would prioritize doing the most possible, within its regulatory and 
financial limitations, to protect consumers from unsafe products. This 
would include initiating meaningful safety initiatives, responding 
quickly and effectively to deaths and injuries caused by particular 
products, communicating to the public frequently about potential 
hazards, and working overall, in the best interest of consumers rather 
than the special interests, especially the regulated entities. CFA can 
not truly determine the current culture of CPSC; however, we can point 
to a number of examples that cause us concern. Broadly, we are 
concerned about what appears to be a wait and see attitude by the 
Commission which has resulted in inaction on a number of critical 
issues.
    In response to the growing number of injuries caused by yo-yo water 
balls, CPSC has merely issued a weak warning to consumers. There has 
been no additional or stronger warning, CPSC has not urged retailers 
not to sell this product and CPSC has not recalled nor banned these 
potentially hazardous products that have been the cause of almost 400 
injuries, almost 300 of which have been strangulations.
    In response to the rising tide of injury and deaths caused by 
adult-size ATVs, CPSC held three field hearings, but has implemented no 
change to the current voluntary system to decrease deaths and injuries. 
CFA filed a petition with CPSC is August of 2002, urging CPSC to take 
action to ban the sale of adult-size ATVs for use for children. It has 
been over two years since we filed our petition and CPSC has not even 
begun the regulatory process.
    CFA filed a petition with CPSC to require manufactures of certain 
products to accompany those products with a ``Product Registration 
Card.'' CPSC denied the petition and has taken no action to improve the 
way manufactures communicate critical recall information to the 
consumers who purchased their products.
D. Conclusion
    In conclusion, Congress should take a number of actions to improve 
the effectiveness of CPSC, including, increasing its funding, and 
amending its authorizing statutes to make it stronger and by monitoring 
CPSC to ensure that they are prioritizing protecting the public from 
unsafe products over the desires of the special interests who are 
``regulated'' by CPSC.
    2. Your testimony provided an example of how the Consumer Product 
Safety Commission failed to implement a product registration card, 
which is required by the National Highway Transportation Safety 
Administration (NHTSA) for child car seats.
    While CPSC decided not to require registration cards, are there 
other tools that NHSTA uses for recalls of tire or car parts that the 
CPSC should consider to better protect children?
    First, I must state that the focus of my work is the Consumer 
Product Safety Commission (CPSC), not the National Highway 
Transportation Safety Administration (NHTSA), and thus I have much 
greater knowledge of CPSC's authority than NHTSA's. That being said, 
some tools that NHTSA seems to have at its disposal do make their 
recalls more effective than CPSC's. Significantly, NHTSA enjoys a 
vastly higher recall compliance rate, about 70%, than does CPSC, which 
hovers at about 15 to 20%.
    What is it that enables NHTSA to enjoy this relatively high recall 
compliance rate? NHTSA and car manufacturers have the ability to do 
what CPSC can't do: directly communicate to every owner of the product. 
NHTSA can do this because every owner of a car is required to register 
their car, thus the contact information is available and accessible. 
Even more significantly, NHTSA, in its regulations, requires that 
``each manufacturer of motor vehicles shall maintain, in a form 
suitable for inspection . . . a list of the names and addresses of the 
registered owners . . .'' (49 CFR 573.8) This is a critical 
requirement. It allows for the creation of a list of the consumers who 
purchased the product and, thus enables each and every one of them to 
be directly notified about a recall.
    In contrast, not only is product registration not mandatory for 
every product under CPSC's jurisdiction, but manufactures are not even 
required to attempt to obtain this information through accompanying 
their product with a form that a consumer could fill out. Thus, to 
communicate the news of recalls CPSC and product manufactures send out 
a press release hoping that media outlets will pick it up and cover the 
story and also hope or assume that the people who bought or own the 
product will happen to read or hear about the recall. NHTSA's model 
could; therefore, be a useful tool for CPSC and Congress to consider 
when taking action to improve recall compliance rates for consumer 
product recalls.
    NHTSA's regulations also require that, ``each manufacturer who is 
conducting a defect or noncompliance notification campaign . . . shall 
submit to NHTSA a . . . quarterly report, with respect to each 
notification campaign, for each of six consecutive quarters beginning 
with the quarter in which the campaign was initiated . . . or 
corrective action has been completed on all defective or noncomplying 
vehicles or items of replacement equipment involved in the campaign . . 
.'' (49 CFR Sec. 573.7) Each report must include the number of vehicles 
or items of equipment involved in the notification campaign; the number 
of vehicles and equipment items which have been inspected and repaired; 
the number of vehicles and equipment items inspected and determined not 
to need repair; and the number of items of equipment repaired and/or 
returned by dealers, other retailers, and distributors to the 
manufacturer prior to their first sale to the public. (49 CFR Sec. 
573.7) A similar requirement for CPSC would strengthen CPSC's ability 
to ensure recalls are effective and reaching the necessary consumers.
    In addition, NHTSA has the authority to monitor the completion rate 
for recalls for six quarters and can issue another notice if an 
inadequate number of vehicles or parts have been returned for remedy. 
(49 CFR Sec. 577.10) Consumers would be served well by CPSC having this 
additional authority. If recall compliance rates for a particular 
product were low, CPSC would be able to take additional, and if 
necessary, stronger action to communicate the recall to consumers.
    Another factor that may impact the relative success of NHTSA's 
recall authority is that NHTSA may assess a civil penalty up to 
$15,000,000, while CPSC's civil penalty is capped at $1,650,000. The 
more significant penalty may serve to encourage car manufactures to 
comply more rigorously with the terms of the recall and may act as a 
deterrent to non compliance with NHTSA's regulations. An increase in 
the amount of civil penalties that CPSC can assess will likely increase 
compliance with CPSC regulations, including notifying consumers about 
product recalls.
    NHTSA has another tool at its disposal that CPSC does not have. A 
consumer can go to NHTSA's web site and find comparative safety data 
about specific brands of cars. This tool drastically increases 
consumers' knowledge about specific vehicles.
    However, if a consumer were to go to CPSC's web site to find 
comparative safety data on specific brands of strollers, for example, 
none could be found. The failure of the public availability of this 
information is due to one of CPSC's most onerous regulations, section 
6(b) of the Consumer Product Safety Act, which requires CPSC to give 
product manufactures veto authority about disclosing information about 
specific products to the public. The repeal of 6(b) is critical to 
providing consumers with the necessary safety information to make 
informed decisions about specific products.
    In conclusion, it would be very useful for staff from CPSC and 
NHTSA to convene a meeting to discuss recall effectiveness, 
specifically to determine the tools that NHTSA has at its disposal that 
CPSC could potentially emulate.
                                 ______
                                 
   Questions for the Honorable Hal Stratton, Chairman, U.S. Consumer 
          Product Safety Commission, From Hon. Edolphus Towns
    Question 1. In the testimony of Ms. Linda Ginzel, she stated that a 
child was killed this year by the same type of portable crib that 
killed her child six years ago. I assume you want to avoid another 
similar tragedy. Why are these dangerous products still in the hands of 
parents? What specific steps will the Commission take to better ensure 
that parents actually return dangerous products when they are recalled?
    ANSWER: Because of the Consumer Product Safety Commission's (CPSC) 
aggressive action to improve crib safety, most infant deaths now occur 
in older, previously used cribs that do not meet current safety 
standards. The agency has been aggressive through the media and 
grassroots organizations in alerting the public to the dangers of these 
old and used cribs. Educating the public and removing these products 
from the stream of commerce are two of the most effective tools that 
the Commission uses to protect the consumer.
    CPSC's Office of Information and Public Affairs disseminates 
information about recalls in a number of ways including joint press 
releases, video news releases, point of purchase posters, direct mail, 
paid advertisements, web site notification, and notification to outside 
organizations who in turn provide information to consumers.
    As an example of the agency's public outreach, unsafe cribs are 
highlighted in our annual Recall Roundup Campaign which this year 
focused on resale outlets such as thrift stores. CPSC joined forces 
with the National Association of Resale and Thrift Shops and the Danny 
Foundation to stop resale, consignment and thrift stores from selling 
previously recalled or banned products and products that do not meet 
safety standards. Additionally, safety seminars were conducted across 
the country to educate store employees about CPSC and how to check 
their stores for hazardous products.
    The CPSC also works with ebay to ensure that dangerous products, 
such as older cribs and other recalled products, are not sold on its 
public auction website. ebay worked with CPSC to develop a children's 
product ``prompt'' which is triggered when a seller attempts to 
register a children's product for auction. The prompt urges the seller 
to review the CPSC's website to make sure their product has never been 
recalled. With baby cribs, ebay requires each seller to review a CPSC-
developed electronic crib safety information sheet prior to listing 
their crib for auction. ebay denies access to its website to persons 
attempting to sell any product that has been banned by the CPSC.
    CPSC recently launched the Neighborhood Safety Network. Through 
this initiative CPSC is partnering with other government agencies and 
private sector organizations to communicate important safety messages 
to vulnerable and hard-to-reach populations. The goal of the 
Neighborhood Safety Network is to build a network of community leaders 
and organizations that are in regular contact with people who may not 
get their news from traditional media outlets or may not have access to 
computers.
    Another new CPSC initiative is Recalls.gov. This new website 
provides a streamlined, one-stop service in alerting commuters to 
unsafe, hazardous or defective products. Because numerous government 
agencies have jurisdiction over a variety of products, consumers are 
often confused as to where to go to seek information on recalled 
products. This site is a user-friendly portal to the recall listings of 
six government agencies including the Environmental Protection Agency, 
the Food and Drug Administration, the Coast Guard, the Department of 
Agriculture and the Food and Drug Administration. Additionally, 
consumers can register at this site to receive instant e-mail alerts on 
all product safety recalls, and consumers can use this site to report a 
problem with a product.
    In its efforts to continue to look at other opportunities to 
improve recall effectiveness, last year CPSC staff held three public 
meetings to discuss new approaches for improving recalls with outside 
experts and interested parties. The subjects of the meetings were: 
``Motivating Consumers''; ``New Tools for Recall Effectiveness''; and 
``Measuring Recall Effectiveness.'' The Commission will be considering 
staff recommendations that resulted from this initiative.
                                 ______
                                 
                    U.S. Consumer Product Safety Commission
                                                   November 4, 2004
The Honorable Cliff Stearns
Chairman
Subcommittee on Commerce, Trade and Consumer Protection
2125 Rayburn House Office Building
Washington, D.C. 20515
    Dear Mr. Chairman: I appreciated the opportunity to testify before 
the committee and to answer the Members' questions on the subject of 
children's product safety. Having reviewed the hearing transcripts, I 
would like to follow up on your invitation to comment on some of the 
issues that were raised at the hearing by the second panel of 
witnesses.
    First, I would like to again call your attention to the U.S. 
Consumer Product Safety Commission's (CPSC) new website 
www.recalls.gov. This site is an important tool that directs consumers 
to the appropriate agency when they are concerned about the safety of a 
particular product or line of products. As you know, federal agencies 
and their jurisdictions can be a frustrating maze of confusion to your 
constituents. Our goal with www.recalls.gov is to present this 
information on recalls in a user-friendly way and to make it simpler 
for consumers to report a problem with a product. I appreciate your 
offer to share information on this important resource with your 
Congressional colleagues.
    Recall effectiveness was an issue that was raised at the hearing. 
The CPSC has initiated a recall effectiveness project to better 
understand the strategies that can be used to reach the most people in 
a recall and to motivate those people to respond appropriately to 
eliminate the identified hazard. Staff is using a multiple stage 
strategy to evaluate consumers' behaviors and the entire recall process 
to better understand the attributes of an effective recall.
    Staff has held three public meetings to discuss new approaches for 
improving recalls with outside experts and interested parties. The 
topics of those meetings included: ``Motivating Consumers,'' ``New 
Tools for Recall Effectiveness'', and ``Measuring Recall 
Effectiveness.'' A staff briefing package on this study is expected 
before the Commission in the near future, and I will be certain to 
provide the Committee with a copy of the staff's findings and 
recommendations.
    In the interim the CPSC will continue to work aggressively and 
creatively to alert consumers to recalled products and to remove them 
from the stream of commerce. In my written testimony I describe CPSC's 
initiatives with our Recall Roundup campaigns, our work with outside 
groups such as the Danny Foundation and the National Association of 
Resale and Thrift Shops and other organizations, our recent project 
with eBay with regard to internet sales, and our new initiative, the 
Neighborhood Safety Network, which seeks to build a network of 
community leaders and organizations that are in regular contact with 
people who may not get their news from traditional media outlets or may 
not have access to computers. These initiatives are in addition to our 
print and electronic media releases and our regular work and 
communications with state and local governments.
    In the fiscal year that just ended, CPSC completed 356 recall 
actions, and I would like to submit for the record the attached chart 
that displays CPSC's recalls over the past ten years. Additionally, in 
response to two other issues that arose during the hearing I would like 
to submit two other charts for the record. The first is a chart of 
CPSC's civil penalty history and the second is a chart of yo-yo ball 
incident reports received by CPSC both before and after our public 
advisory in September, 2003.
    The second panel also raised the question of pre-market testing. 
Section 14 of the Consumer Product Safety Act states that the 
Commission may require firms to certify compliance of their products 
based on proscribed testing programs when a regulation is promulgated 
regarding such products. CPSC has done that under a number of 
regulations. Under the statute, firms have the option of using outside 
private laboratories. While the CPSC is not given any express authority 
over these private laboratories, the agency does have the authority to 
require record-keeping and do inspections of the manufacturers 
according to section 16 of the Consumer Product Safety Act.
    Finally, I would like to submit for the record a letter that CPSC's 
Executive Director sent to the President of Consumers Union in response 
to an article which appeared in their publication, Consumer Reports. 
That article was submitted for the record at the hearing.
    Again, thank you for this opportunity to follow up on these issues. 
We look forward to continuing to work with the Committee on issues of 
our mutual concern in the 109th Congress.
            Sincerely,
                                               Hal Stratton
                                                           Chairman

                                 <all>

</pre></body></html>
